<html>
<title> - A REVIEW OF THE PREPAREDNESS, RESPONSE TO, AND RECOVERY FROM HURRICANE SANDY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                     A REVIEW OF THE PREPAREDNESS,
                       RESPONSE TO, AND RECOVERY
                          FROM HURRICANE SANDY

=======================================================================

                               (112-112)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 4, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
    

                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

77-210 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
BILL SHUSTER, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
SHELLEY MOORE CAPITO, West Virginia  LEONARD L. BOSWELL, Iowa
JEAN SCHMIDT, Ohio                   TIM HOLDEN, Pennsylvania
CANDICE S. MILLER, Michigan          RICK LARSEN, Washington
DUNCAN HUNTER, California            MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida        VACANCY
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency.........................................................    15
Major General Michael J. Walsh, Deputy Commanding General, Civil 
  and Emergency Operations, U.S. Army Corps of Engineers.........    15
Frederick Tombar, Senior Advisor to the Secretary for Disaster 
  Recovery, U.S. Department of Housing and Urban Development.....    15
Robert R. Latham, Jr., Director, Mississippi Emergency Management 
  Agency.........................................................    15
Mark Riley, Deputy Director, Governor's Office of Homeland 
  Security and Emergency Preparedness, State of Louisiana........    15
David J. Popoff, Chief Emergency Management Coordinator, 
  Galveston County Office of Emergency Management, State of Texas    15

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Andy Harris, of Maryland....................................    53

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. W. Craig Fugate.............................................    55
Major General Michael J. Walsh...................................    66
Frederick Tombar.................................................    73
Robert R. Latham, Jr.............................................    80
Kevin Davis, Director, Governor's Office of Homeland Security and 
  Emergency Preparedness, State of Louisiana, submitted by 
  witness Mark Riley.............................................    90
David J. Popoff..................................................   133

                       SUBMISSIONS FOR THE RECORD

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, responses to questions for the record from the 
  following Representatives:

    Hon. John L. Mica, of Florida................................    62
    Hon. Nick J. Rahall II, of West Virginia.....................    64
Major General Michael J. Walsh, Deputy Commanding General, Civil 
  and Emergency Operations, U.S. Army Corps of Engineers, 
  response to question for the record from Hon. Eleanor Holmes 
  Norton, a Delegate in Congress from the District of Columbia...    71
U.S. Department of Housing and Urban Development, responses to 
  questions for the record.......................................    78

                         ADDITION TO THE RECORD

Ed Bolen, President and CEO, National Business Aviation 
  Association, letter to Hon. Jeff Denham, Chairman, and Hon. 
  Eleanor Holmes Norton, Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management, and 
  list of efforts undertaken by the business aviation community 
  to assist Hurricane Sandy victims, December 18, 2012...........   147
  
  
[GRAPHIC] [TIFF OMITTED] 

 
                     A REVIEW OF THE PREPAREDNESS,

                       RESPONSE TO, AND RECOVERY

                          FROM HURRICANE SANDY

                              ----------                              


                       TUESDAY, DECEMBER 4, 2012

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2167, Rayburn House Office Building, Hon. John L. Mica 
(Chairman of the committee) presiding.
    Mr. Mica. Good morning. And I would like to call this 
hearing of the House Committee on Transportation and 
Infrastructure to order.
    This is a full committee hearing. We conduct our oversight 
and investigations at the full committee level. We are 
conducting this in cooperation with our subcommittee that 
oversees FEMA, economic development, public buildings, and 
emergency management services.
    The title of today's hearing is, ``A Review of the 
Preparedness, Response to, and Recovery from Hurricane Sandy.'' 
We have a list of witnesses, and we will welcome those 
witnesses in a few minutes. The order of business today will be 
as usual. We will have opening statements by Members, hear from 
our witnesses, and we will hear from all of them, and then we 
will go into a round of questions.
    So I want to welcome everyone and thank you for your 
participation, and also yield to myself for an opening 
statement, and then we will go to other Members.
    Well, again, I am pleased that we have come together here 
as a committee to review the progress from Hurricane Sandy, 
recovery progress. But this hearing actually goes beyond the 
most recent hurricane and storm.
    We have attempted as a committee to make some reforms and 
also deal with some of the problems we have had from past 
storms and natural disasters. And the House, prior to this most 
recent storm, passed H.R. 2903, which was the FEMA 
Reauthorization Act. That was passed on September 19th, before 
the storm began. And it was passed specifically to deal with 
some of the problems we have had with previous natural 
disasters and also the ability of FEMA, our emergency 
management organization at the Federal level, to deal with some 
of those issues.
    The bill, unfortunately, is languishing in the United 
States Senate, along with other pieces of legislation, but I am 
hopeful that we can dislodge it. And I think we will hear from 
this hearing that we need some of the mechanisms and reforms in 
that legislation to help FEMA and other agencies better do its 
job in helping folks restore their lives and their property 
and, really, the country and the regions' and communities' 
economies.
    The bill, for example, creates a public assistance pilot 
program. It is a grant-like program based on cost estimates, 
not actual damages. And we think that that can also speed up 
the process, cut some of the redtape, paperwork. And we will 
hear a little bit about some of the impediments to getting 
folks back on their feet through the FEMA process today.
    It also requires cost-estimating, shortens FEMA's appeals 
process. And we will hear also about the constraints that FEMA 
works under now under current laws and regulations. And, 
hopefully, that can be expedited so people who have experienced 
damage most recently can be made whole or at least get the 
Federal part of the assistance underway in an expedited 
fashion.
    The legislation also allows State administration of hazard 
mitigation. And we think that that is important, also, in the 
process and some of the problems we have seen in the past.
    The legislation, if passed by the Senate, would reform the 
rebuilding process, cut through redtape and sometimes the 
bureaucratic nightmare that we have seen other States have to 
deal with.
    The legislation was formed on a bipartisan basis, and we 
reviewed different disasters in States. Of course, the premier 
disaster we are all familiar with is Katrina, but storms in 
Louisiana, natural disasters in Texas, Mississippi, Florida, 
Arkansas, Iowa. And I had a chance to visit most of those 
venues and talk to folks and hear about the problems they 
incurred in dealing, again, with the Federal Government and 
FEMA programs.
    Some 10 years from now, we don't want to be having hearings 
and asking FEMA why it is taking so long to rebuild from 
Hurricane Sandy. We know what is awaiting, unfortunately, some 
of the folks in New York and New Jersey and other areas that 
have been impacted in the Northeast by this most recent storm. 
And we know the redtape, paperwork, and sometimes confusing 
process that they have to deal with. And, hopefully, again, our 
legislation can be passed before this Congress leaves.
    Let's see, I guess it was the week before last, this past 
week, I led a congressional delegation, some of our committee 
members, to New York. And it was kind of interesting to meet 
with local officials and also see where they are in this stage 
of recovery.
    First, I have to say how much I admire the people of New 
York, New Jersey, the northeast region that were hit. Some 
absolutely incredible people who worked 24/7--local officials, 
State responders. We had different agencies--DOD, the National 
Guard. We had private individuals who came out--churches, Red 
Cross, community organizations, just thousands of people who 
were helping their fellow Americans in recovery. And we also 
saw our FEMA folks on the scene. And we will talk about what 
their role has been and, again, how, hopefully, we can help 
them.
    Interestingly enough, they were praising the FEMA folks in 
both New York and Staten Island where we visited. When I left 
Staten Island, the president of the borough said to me as I was 
leaving the meeting and we were getting a briefing, he says, By 
the way, Mr. Mica, he says, do you think you could help us with 
some FEMA recovery? And I said, What is that? And he said, 
Well, they promised us I think it was $25 million, and so far--
I guess it was Hurricane Irene almost a year and a half ago--so 
far they have only gotten $7 million from that. So I said, 
Well, hang on to your shorts because, you know, if you are 
looking at multibillion-dollar recovery and you can only get $7 
million out of $25 million promised, you may be in for a long 
ride.
    We then met with Mayor Bloomberg and toured some of the 
damage in New York City. And he also praised some of the work 
for FEMA and others. But as also he was leaving, he took me 
aside and said--he had talked, I guess, to Secretary 
Napolitano, and he was still having difficulty getting money 
from FEMA from Hurricane Irene.
    So, again, there appears to be difficulty in past storms. I 
had asked staff about Katrina, and I think we will hear more 
about that. But I understand Louisiana still has $1.7 billion 
in unreserved claims from 2005. That was August 29, 2005.
    So I think the point here is that we want to find a way to 
make certain that this process moves forward as quickly, 
efficiently, and as responsibly. And FEMA does have to comply 
with the law that we set on the regulations and certainly be 
good stewards of taxpayers' money.
    So, again, we now find ourselves with the current 
situation. The President has visited the Northeast. And on the 
15th of November, the President announced that HUD Secretary 
Shaun Donovan would be in charge of coordinating some of the 
rebuilding and recovery effort--a little bit different. Maybe 
his intent is to sidestep some of the bureaucracy; we don't 
know. But we hopefully will find out--we have a witness today, 
in addition to FEMA, from HUD--and find out where we stand with 
that new approach. The announcement did not supply us with any 
details, and subsequent statements made by Secretary Donovan do 
raise a number of serious questions as to who will be in charge 
of that particular activity and how it will fit into the FEMA 
recovery scheme.
    So I look forward to hearing from our witnesses. And we 
hope to make this a productive hearing in which we can, again, 
keep people from going through redtape and paperwork, maybe 
passing that. I asked staff to pull a couple of clips from the 
most recent--and we will hear from our Representative from 
Maryland in a minute. The headlines say, ``FEMA denies help to 
Maryland homeowners.'' ``New Yorkers hit hard by Hurricane 
Sandy denied aide by FEMA bureaucracy.'' ``After disasters, 
FEMA does not help every State.'' The clips go on and on. And I 
think that we will also hear from some other people that have 
had issues with this storm and past storms.
    What we need to do is make certain that these folks, again, 
get the very best response and that we give FEMA the very best 
tools so they can respond.
    With that, I am pleased to yield to the ranking member, 
distinguished gentleman from West Virginia, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman, and I commend you for 
holding this hearing today, and certainly welcome all of our 
witnesses and commend each of you and your organizations for 
the tremendous work that you have done to help our people, for 
your service to our Nation. We all are deeply indebted to you 
for that.
    I also want to recognize the work and thank those who 
selflessly gave of their time to help others in need before, 
during, and after the storm--Federal, State, and local 
emergency responders, National Guardsmen, and numerous 
volunteers, who themselves often reside in the path of oncoming 
storms. They say goodbye to their loved ones for whatever time 
is necessary so that they can help prepare for and respond to 
disasters. Their dedication and their commitment is truly 
commendable to their fellow human beings.
    Superstorm Sandy inflicted brutal damage up and down the 
east coast, but it also severely impacted inland States, such 
as West Virginia, where the hurricane and a nor'easter 
collided, leaving in some areas up to 6 feet of snow.
    It appears with each storm these days there are different 
circumstances. And certainly I know that we are learning from 
each storm so that we can be prepared for the next one, no 
matter what circumstance it takes or what nature of a storm 
hits us.
    But in this last one, roofs collapsed because of 
accumulated snow, destroying businesses; roads were impassable 
for days, cutting off emergency assistance to households; power 
outages were long-lasting and widespread; property was 
destroyed; and lives were seriously disrupted and even lost.
    Last week, President Obama issued a major disaster 
declaration for 18 counties in West Virginia, including 7 
counties in southern West Virginia. It took nearly a full month 
before the full extent of the public assistance program was 
granted to these counties.
    And I commend you, Administrator Fugate, for your work. We 
have talked on this issue. You have kept Members of Congress 
briefed, all of you have, throughout this recovery process.
    West Virginia families, however, are still waiting for a 
decision on whether individual assistance will be made 
available. It has been nearly 5 weeks now and still no 
response. Our citizens need and deserve timely answers, 
especially when such disaster assistance is so critically 
needed.
    In the FEMA reauthorization bill passed earlier this year 
by the House, at my request a provision was included to require 
FEMA to update its rules regarding the issuance of individual 
disaster assistance.
    Clearly, Sandy is yet another reminder that such updates 
are very much needed in order to ensure more timely and 
responsive assistance. Over 300,000 West Virginia customers 
were left without power after Sandy. This comes just months 
after more than twice as many West Virginia customers lost 
power, some for several weeks, following the June derecho.
    While I appreciate FEMA's updated guidance on the 
eligibility of generator purchases for critical facilities 
under the Hazard Mitigation Grant Program, I do encourage FEMA 
to determine whether even broader eligibility is appropriate 
and to clarify how FEMA intends to determine the cost-
effectiveness of generator requests. I hope FEMA will consider 
the full range of potential costs of power outages at public 
facilities in order to ensure generators can be more readily 
available using Hazard Mitigation Grants.
    Thank you, Mr. Chairman, for this hearing.
    Mr. Mica. Thank you.
    Let me yield now to the chair of the subcommittee of 
jurisdiction, Mr. Denham, from California.
    Mr. Denham. Thank you, Mr. Chairman. And thank you for 
holding this hearing, not only on such an important issue, but 
at such a critical time for this issue.
    As a Representative from California, my constituents and I 
know very, very well how important it is to plan and prepare 
for disasters, from earthquakes, floods, wildfires. We know 
that good planning and preparedness saves lives and mitigates 
against damages.
    That is why, as chairman of the subcommittee with 
jurisdiction over FEMA and emergency management, I have held 
numerous hearings focusing on emergency management capability 
and authored the FEMA Reauthorization Act, which passed the 
House in September and is currently over in the Senate now. We 
look forward to seeing that passed all the way to the 
President--meaningful reforms that would help us out in today's 
current situation.
    And I want to thank Mr. Fugate for not only your 
partnership and your expertise in this area but certainly for 
being willing to go out there and help us to get both parties, 
both Houses working together to get this very important 
legislation passed.
    What is critical to communities and people devastated by a 
disaster is not only the initial response but also how quickly 
people can rebuild and get back to normalcy. We have seen 
improvements made since Katrina in how we prepare for and 
respond to disasters, but we still see many problems. Despite 
prepositioning of certain assets, we still saw massive fuel 
shortages, people in places like Staten Island who did not have 
help for days, and millions without power.
    In addition, we have seen meaningful improvements in 
recovery and rebuilding. We don't want to see New York and New 
Jersey still haggling with FEMA over every different doorknob 
and light switch. We want to see bills paid immediately and 
that rebuild done immediately.
    That is why the FEMA Reauthorization Act, H.R. 2903, 
includes a new public assistance pilot program that would 
immediately allow FEMA to waive duplicative and outdated 
regulations and give more flexibility to the rebuilding 
process. We direct FEMA to review and streamline its 
regulations, require the use of cost estimates, shorten the 
FEMA appeals process, and make it easier for communities to 
have access to temporary housing units.
    I am pleased that we have emergency managers from States 
who are still rebuilding from prior disasters. I hope today we 
can hear from them what their experiences have been with the 
current process, what are the lessons learned, and what 
improvements they might recommend to the process.
    I am also interested in hearing how FEMA and HUD intend to 
address the current housing issues. Thousands are still without 
homes, and it still is not clear what will be the total number 
of people who will need longer term housing while they rebuild. 
It is also not clear what exactly will HUD's role be in the 
recovery process, given the President's announcement that the 
Secretary of HUD will lead redevelopment and rebuilding 
efforts. I hope today to get more details on that process, how 
it will work, and what the timeline will be to get people back 
in new homes.
    Again, I want to thank the witnesses for being here today 
and thank Chairman Mica for holding this important hearing.
    Thank you, and I yield back.
    Mr. Mica. Thank you.
    And I am pleased to yield now to the ranking member of the 
subcommittee of jurisdiction, the gentlelady from the District, 
Ms. Norton.
    Ms. Norton. Well, thank you, Mr. Chairman. And I especially 
thank you for holding this very timely hearing on yet another 
unprecedented storm in our country.
    I ask to revise and extend my remarks so I may summarize 
them.
    This event covered 24 States and saw a confluence of 
climate I don't think we have ever seen before: a hurricane 
colliding with a nor'easter, and whiteout snow conditions. That 
is what has lots of scientists thinking about the effects of 
climate change.
    Thousands of people, when you have an event this large, are 
still living in temporary housing. Twelve States received 
emergency declarations before the storm, and so far, 10 States 
have received disaster declarations. The District of Columbia 
has a disaster declaration pending.
    Our Post-Katrina Emergency Management Reform Act, I 
believe, has proved useful during this storm. We provided FEMA 
with new tools, clarified their duties and functions. And we 
see some of this not only with respect to FEMA but also its 
nonprofit partners and the, apparently, good prepositioning of 
supplies, the closing of subways and of the Metro system, to 
name two of the most obvious.
    But I hope this hearing will focus on forward thinking as 
these States rebuild, and especially hazard mitigation to 
prevent similar loss of life. I don't know if anyone could have 
mitigated what happened to New York and New Jersey because in a 
real sense these storms brought as unprecedented conditions as 
one might expect in a terrorist disaster. You didn't know what 
to expect; you never would have expected this. How do you 
mitigate, given our hazard mitigation legislation and funds, so 
that the next time, should it come, these important States are 
not put in the position that they are today?
    I am also concerned about the failure of FEMA to put into 
effect cost-estimating for the recovery phase. In the last 
Congress, our Subcommittee on Economic Development, Public 
Buildings, and Emergency Management held a hearing in which 
among the issues focused was the failure of FEMA to, in fact, 
use cost-estimating for the removal of debris and the like, 
just as the insurance industry does.
    Now, the insurance industry is known for conserving its 
funds and going after people who cheat. Now, if the insurance 
industry can use cost-estimating to hurry up the process of 
clearing after an event, I will be very interested to learn 
whether or not cost-estimating, which we first mandated in the 
Disaster Mitigation Act of 2000, will for the first time be 
used after Hurricane Sandy.
    I will also be interested in the President's announcement 
that the Secretary of Housing and Urban Development agency will 
lead the Government's Sandy assistance. I believe this is the 
first time. It appears to be a coordination function. I 
normally am for such coordinating functions. I will be 
interested, however, to see how they will operate in this new 
joinder of agencies; FEMA to continue to have, however, the 
individual and public assistance function. It will be important 
for the two agencies to sort out whose regulations apply so 
that there is a real coordination function rather than a 
stepping on one another's toes.
    I look forward to today's witnesses. And I particularly 
commend and thank FEMA for the Herculean work it did in the 
beginning of this storm and all the partners who assisted the 
Agency.
    And thank you, Mr. Chairman.
    Mr. Mica. Thank the gentlelady.
    Pleased now to recognize the gentleman from Maryland, Mr. 
Harris.
    Dr. Harris. Thank you very much, Mr. Chairman, for holding 
this hearing today and for the opportunity to discuss the 
impact of Hurricane Sandy on the area I represent and the 
response efforts to date.
    The First Congressional District includes all of Maryland's 
Eastern Shore, much only a few feet above sea level. Somerset 
and Worcester Counties and particularly the communities of 
Crisfield, Smith Island, Marion, Fairmount, Deal Island, Ocean 
Pines, and Princess Anne were particularly hard-hit with flood, 
wind, and rain damage from Hurricane Sandy.
    While these communities continue to recover, our thoughts 
and prayers certainly go out to our neighbors from New York, 
New Jersey, Delaware, and other areas where the lives and 
businesses of families were disrupted as they dealt with 
massive property loss.
    On October 31st, 3 days after the storm, I toured the 
affected sites in Crisfield and Ocean City with Governor 
O'Malley and FEMA and local officials to see firsthand the 
serious impact of the superstorm. While Army Corps beach 
engineering projects protected Ocean City, I was stunned to see 
the evident devastation that some of our bay coastal 
communities like Crisfield suffered.
    Three weeks ago, I hosted a tele-town-hall meeting with 
over a thousand residents from impacted communities 
participating, with officials from FEMA and Maryland's 
emergency management agency also on the phone. I was encouraged 
by the Federal and State coordinated response efforts to date. 
But a message I did hear loud and clear is that few citizens 
have an understanding of the different responsibilities of 
Federal, State, and local governments in disaster response and 
recovery.
    Two weeks ago, President Obama issued a major disaster 
declaration for Maryland and approved Governor O'Malley's 
request for public assistance and hazard mitigation. However, 
yesterday, a request for individual assistance has been 
rejected. I am puzzled by that rejection, given the lack of 
resources in our lower shore counties, and hope this hearing 
may shed some light on the reasoning behind that decision.
    Mr. Chairman, this hearing will underscore the need for all 
levels of Government to be prepared for these catastrophes in 
the future, ensuring that scarce resources can always be made 
available to those of our communities most in need of 
assistance.
    I look forward to hearing the testimony of our panel of 
witnesses this morning, and I thank you again, Mr. Chairman, 
for holding this hearing.
    Mr. Mica. Thank you.
    And I am pleased to yield to the gentleman from New York 
and thank him for his hospitality he extended to the committee 
in viewing some of the damage in his district in Manhattan.
    Mr. Nadler?
    Mr. Nadler. Thank you, Mr. Chairman. And thank you and the 
Ranking Member Rahall for holding this hearing on the Federal 
response to Hurricane Sandy.
    I currently represent New York's Eighth Congressional 
District, which includes Lower Manhattan and the Brooklyn 
waterfront communities of Red Hook, Sea Gate, and Coney Island, 
all of which were hard-hit by this storm.
    Although the emergency response agencies worked hard to get 
the city back up and running, there were gaps in the recovery 
operations, and there are many challenges that remain, 
particularly for a dense urban area like New York. Our 
transportation system is too vulnerable. Our infrastructure is 
old and harder to replace. The power grid runs more than just 
lights and computers; it also powers heat and hot water, and 
all water in the highrises all over the city, and it operates 
the elevators that the elderly and disabled rely upon to escape 
their homes when they become unsafe.
    Although FEMA and the National Guard set up distribution 
centers around the city, in many cases people were unable to 
leave their apartments to pick up supplies, and deliveries 
didn't make it to many buildings. My office, along with other 
elected officials, organized volunteers, collected supplies, 
and hand-delivered blankets, food, and water to people stuck in 
highrises. Lugging goods up flights of stairs is no easy task, 
and it is better left to trained professionals. But if we 
hadn't done it, with the help of students from NYU and other 
good samaritans, many people would not have received any help 
at all in the weeks after the storm.
    This is just one example, but I fear it illustrates the 
particular challenges of an urban setting that our emergency 
response agencies are ill-equipped to handle or at least 
haven't had to contemplate on a scale of this magnitude.
    Another particular challenge in New York is the lack of 
available hotels and rental units for displaced storm victims. 
FEMA has issued millions of dollars for transitional housing 
and temporary rental assistance, but vacancies in which to use 
that money are hard to find, and the reimbursement rates are 
often too low for whatever is available.
    The lack of a viable long-term housing plan is one of the 
biggest challenges we face going forward. All levels of 
Government need to work together to solve this problem. Our 
most basic responsibility is to ensure that people have a safe 
place to stay following a storm, and yet it is the biggest 
question for which we now have no answer.
    For people who can stay in their homes, we are hearing 
increasing reports about environmental contamination from toxic 
mold, sewage, and other hazardous substances. Although there 
are some resources available to assist with the cleanup, in 
many cases it is inadequate, particularly for those living and 
working in densely populated buildings that share common spaces 
and HVAC systems.
    Given New York's recent history with environmental hazards 
caused by the collapse of the World Trade Center on 9/11, we 
know all too well the danger presented by indoor contamination. 
We must not repeat the mistakes of 9/11 by leaving people to 
their own devices to clean up complex toxins in their homes 
without proper guidance and assistance from the Federal 
Government. I have asked the EPA to conduct or oversee 
comprehensive testing to ensure that people's homes and 
workspaces are safe to inhabit, and I urge my colleagues to 
join in that request.
    I am also concerned that OSHA rules are not always being 
followed and that many cleanup workers are not being given 
proper protective equipment. This is another mistake from 9/11 
that is too often repeated in response to disasters, and I have 
asked OSHA to ensure that its rules are adequately enforced.
    State and city agencies estimate the cost to repair the 
damage caused by Hurricane Sandy will be at least $40 billion 
for New York State alone. Within New York City, the mayor 
estimates public and private losses of $19 billion, including 
$4.8 billion in uninsured private losses and $5.7 billion in 
lost gross product from business closures.
    For many small businesses, who are already operating on a 
thin profit margin or who are only now paying off loans from 9/
11, the SBA loan program will not suffice. We will need to 
provide grants or some form of direct aid, as we did after 9/
11, if we want these businesses to survive.
    With costs this high, New York State and New York City, 
like its counterparts in the region, cannot shoulder this 
burden alone, and the standard FEMA reimbursement process will 
not work. The State and the city do not have billions of 
dollars sitting in their coffers to advance to fund repairs, 
and FEMA reimbursement is slow and cumbersome. In fact, New 
York is still waiting on the payments for Hurricane Irene. And 
I am sure many of my colleagues have had similar experiences in 
their States. That is why we will be requesting that the 
Hurricane Sandy supplemental be distributed through the various 
agencies in direct aid to affected areas, as we have done at 
times in the past to expedite recovery.
    And we were must pass an emergency supplemental without 
requiring offsets, as some have suggested in past disasters. As 
the current debate over the pending sequestration shows, 
finding offsets is no easy task, and it makes no sense. It 
defies the very nature of emergency aid, and it impedes the 
Federal Government from doing its most important job: 
protecting our citizens when calamity strikes.
    It will be expensive to rebuild, but we must. And it would 
be foolish not to do so with the next storm in mind, which will 
undoubtedly come. We must fortify our shorelines and seawalls 
and better protect low-lying areas from storage surge. I expect 
the Army Corps to finally construct the Coney Island shorefront 
protection project. It is fully funded. The local match is 
already secured, and it was ready to go out to bid this summer.
    The Corps must move forward as originally intended without 
delay, but, frankly, that is the bare minimum we could do, and 
it is not enough. We should invest in research and explore 
technologies to better protect our road and rail tunnels from 
flooding. We should allow the MTA to upgrade its aging transit 
system rather than require it to use Federal funds to replace a 
70-year-old switching system with equivalent 70-year-old 
technology. And we must have a better plan for restoring power 
lines and gas supplies.
    Hurricane Sandy should be a major wakeup call. When 
disaster strikes, our densely populated urban areas and 
economic centers must be able to recover quickly. If we are 
going to invest billions of dollars in rebuilding storm-ravaged 
areas, we should do so in a way that will protect people from 
future storms. And we have every reason to believe that major 
storms will threaten us again and soon.
    The devastation and chaos brought by Hurricane Sandy have 
had a lasting impact on our city and region, and the lives of 
thousands of New Yorkers are still upsidedown. But if we all 
stand together, we can rebuild quickly, stronger, and better 
than before.
    Again, Mr. Chairman, I thank you for holding this hearing, 
and I look forward to hearing from the witnesses.
    Mr. Mica. Thank the gentleman.
    And from nearby New Jersey, we have the gentleman from New 
Jersey, Mr. LoBiondo, who was also hit by this storm.
    You are recognized, sir.
    Mr. LoBiondo. Thank you very much, Mr. Chairman and members 
of the committee.
    As many of you know, I represent the Second Congressional 
District in southern New Jersey. It is a little bit more than a 
third of the State, geographically, with an awful lot of 
coastline. We faced catastrophic destruction with the storm and 
as a result of the storm. The images speak to the sheer 
destruction. The personal story of those affected detail the 
physical, emotional, and financial toll on our community and 
their residents.
    I spent a great deal of time on the ground visiting 
communities, discussing the response and recovery with 
emergency management officials, meeting individually with 
constituents and business owners who are determined to not let 
the storm stand in the way of getting back on their feet. But 
we need to work together, and that is why I have joined with my 
colleagues in DC to ensure that Congress provides additional 
Federal support that has been requested and is desperately 
needed.
    Even though the coverage of this devastation has left the 
front pages of many media outlets, it is still in the forefront 
of my mind and the minds of my constituents, who are responding 
with strength, courage, and resiliency as they do their best to 
pick up the pieces in an unprecedented recovery effort that is 
underway.
    When President Obama visited Brigantine, which is in my 
district, he also saw firsthand the way this storm has impacted 
individuals' livelihoods and how their ways of life have been 
forever changed due to the horrific flooding and wind.
    To date, Federal Emergency Management Agency--and, Mr. 
Fugate, we thank you for what you are doing and thank you for 
being on the ground that day in my district--along with U.S. 
Small Business Administration, Department of Agriculture, 
Department of Housing and Urban Development, and other Federal 
agencies and departments, have truly been boots on the ground, 
ensuring disaster assessments are being conducted in a timely 
manner. These emergency management personnel have gone above 
and beyond the call of duty, many of them working around the 
clock tirelessly to ensure the safety of our residents, and 
they deserve tremendous praise.
    Likewise, Governor Christie has shown tremendous poise and 
unwavering leadership during this crisis, coordinating all of 
the different emergency response units and leading the State, 
maybe very importantly, in the days prior to the storm hitting 
as well as during and after the storm has hit.
    However, it is going to be a long and challenging road 
ahead, a challenge my colleagues in the New Jersey delegation, 
including my friend Congressman Sires, and I recognize and are 
prepared to deal with. The most recent damage assessment by 
Governor Christie of approximately $37 billion for all of New 
Jersey makes it clear that the State will not be able to handle 
this financial burden alone and emergency supplemental funding 
will be needed.
    I am working with President Obama's administration and the 
House leadership, as a long recovery is planned, specifically: 
requesting funding for the Flood Control and Coastal 
Emergencies Account; imploring the President to fund all 
previously authorized Army Corps beach and flood control 
projects in New Jersey; requesting a Federal fisheries resource 
disaster declaration for New Jersey; expediting an emergency 
supplemental bill to the floor to provide Sandy relief; and 
insisting that redtape be eliminated and minimized and the 
bureaucracy be set on notice to get everything moving, just to 
name a few of the things.
    Congress has worked together in a bipartisan and bicameral 
manner in the past to respond to other national natural 
disasters. New Jersey and the States affected by this storm 
should not be treated any differently than any of these past 
natural disasters. So we are expecting that when it comes to 
Federal relief and recovery efforts from Hurricane Sandy, we 
must stand ready to provide the aid and assistance to the 
people and communities devastated by this storm as we have done 
for other States and other parts of the Nation when this has 
hit.
    I thank the witnesses for being here today to testify. I 
look forward to hearing their testimony on the recovery efforts 
from previous disasters and lessons learned by the recovery 
effort that may help inform us as we move through this latest 
disaster.
    Mr. Chairman, I thank you very much.
    Mr. Mica. Thank the gentleman.
    Another gentleman from the hard-hit State of New York, Mr. 
Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. In the interest of 
time, I won't make a formal opening statement, but let me just 
make a couple of points.
    First, I want to thank Mr. Fugate from FEMA and General 
Walsh from the Army Corps for the effectiveness of your 
response thus far to the thousands of homeowners in our 
district that were dislocated by the storm. And particularly 
with respect to the Army Corps, we had three new breaches, and 
the Army Corps has moved very quickly. One has already been 
closed, one is in the process of being closed now, and a third 
is being reviewed to see if it will close naturally. So I thank 
you very much for that.
    An observation: The engineered beaches in our district 
fared vastly better than the nonengineered beaches. I think 
that is, in my view, an open-and-shut argument for beach 
nourishment and for the role that the Corps can play in 
stabilizing our shoreline.
    And, thirdly, let me echo what Mr. LoBiondo and Mr. Nadler 
said with respect to the necessity for an emergency 
supplemental. We absolutely need one, and we need one without 
offsets. That has been the way this Congress has responded to 
natural disasters elsewhere in this country. We need to respond 
in the same way, with the same degree of commitment as we did 
for Katrina, as we did for the tornadoes in the Midwest, as we 
have for fires elsewhere. So I very much hope that our 
colleagues on both sides of the aisle will respond quickly and 
appropriately for the need for an emergency supplemental 
without offsets.
    With that, I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    And we do have another Member from New Jersey, also hard-
hit State, as you know. Pleased to recognize Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing today.
    I will just agree and echo, and I won't repeat myself, with 
my colleague from New Jersey, LoBiondo. I think he said it best 
when he made those statements, and I agree with my colleagues 
from New York. But I would like to make a couple observations.
    You know, I represent what they call the Gold Coast, which 
is the Eighth Congressional District. Hoboken, Jersey City, 
Bayonne, that area got hit very hard. And one of the things 
that is still not clear is, when is the PATH in Hoboken going 
to be ready for people to go into New York City? You know, 
right now they are taking the ferries, $9; the PATH $2.25.
    I spoke to a former Congressman, Frank Guarini, who still 
has no power in his building in Jersey City. So we are just 
wondering if anybody can talk a little bit about that. It is a 
whole building.
    I also would like to compliment all of you because every 
time I made a phone call people got back to me. You were 
terrific. I don't know how you do it, staying so calm when 
people are yelling at with you all their frustrations. But I 
certainly compliment you, Mr. Fugate; and I want to compliment 
you, because the Army Corps of Engineers has always responded 
professionally; and everybody else.
    But certain things we have to certainly do. We have to 
certainly coordinate the fuel situation better. You know, in my 
district, it was difficult to get the fuel. And I expressed 
this to Governor Christie, about possibly getting generators 
for some of these places, and he suggested that at some of 
these places the problem was the hookup. It wasn't the fact 
that you did not provide the generators.
    The other issue that I have in Hoboken, you know, it is a 
very congested area. A lot of people live in basements, and 
their basement is their home. It is their first home. And they 
want to know, you know, what is going to happen to them. So 
there are a lot of questions.
    And the last thing, which is my pet peeve, is we had so 
many people volunteer, come into the State to help, and it did 
not seem it was well-coordinated with the power companies. We 
had trucks parked behind hotels, people in the hotels, and two 
blocks away in Weehawken, New Jersey, people had no power. 
There has to be a way of working the coordination when so many 
people want to give of their time and volunteer to help other 
people, that we must find a way to coordinate these people as 
they come into any State, so you can send them into the most 
devastated area.
    But I just want to thank you.
    And thank you for the extra time.
    Mr. Mica. Thank the gentleman.
    If there are no other Members that seek recognition--oh, I 
am sorry, Ms. Edwards. And thank you also for joining us in the 
committee visit to the affected area. Ms. Edwards, you are 
recognized.
    Ms. Edwards. Thank you, Mr. Chairman. And I do appreciate 
being able to visit the storm-affected areas in Staten Island 
and through New York City.
    I think that although we didn't have tremendous impacts 
here in the Washington, DC, metropolitan area from Hurricane 
Sandy, there were some. Certainly, our State in Maryland, as we 
heard from my colleague from the Eastern Shore, had damage 
there.
    You know, one of the things that it occurs to me, Mr. 
Chairman, is how important it is for us to have actually been 
able to visit and to see some of the damage firsthand and to 
meet with local officials and with residents because I think it 
gives you a different perspective about what the need is for 
recovery. And for me as a Member, even though there is not a 
personal concern for my congressional district, it makes me a 
stronger and better advocate for the people in the worst-
affected areas.
    Also, on the ground, I will say to Administrator Fugate, 
your personnel on the ground remind us of the importance of a 
strong and talented and equipped Federal workforce. And I 
really appreciate that. And I think for all of the time that is 
spent beating up on our Federal workers for various reasons, we 
heard over and over and over again how competent and talented 
and organized and resourceful the assets are on the ground.
    It is also true that, you know, while there have been 
clearly, as was pointed out to us both by the chairman and 
other Members as well as the officials in New York, you know, 
problems with payout for previous storms, we have to clear 
those things up, but it shouldn't stop us from moving forward 
and from making a commitment to the people of all of the storm-
affected areas that we are going to provide what is necessary 
to rebuild and to replace.
    I hope that the members of the panel today will address 
questions regarding how we need to rethink our infrastructure 
in light of these kinds of storms in these low-lying areas. The 
elephant in this room that needs to be spoken about is the 
impact of climate change and the increasing intensity of storms 
and the variedness of the storms, the breadth of a storm like 
Sandy. And I think that we have to rebuild and rethink our 
infrastructure in those terms. And that is something that this 
Congress and our next Congress ought to address sooner rather 
than later.
    Things like our power grid in densely populated areas; what 
is it that we can better do to better protect them to make sure 
that we are able to bring them back on line as soon as 
possible? Our water infrastructure, sewer infrastructure that 
is located close to the coastline so that it is more 
vulnerable; and of course our transit infrastructure. To know 
that at least one tunnel in New York that is brand-new is 
devastated. And the tunnels, the tubes are old. And while the 
city, I think, has done an amazing, amazing job in getting 
things back on line and people moving from one place to 
another, that infrastructure is really vulnerable, as it is 
vulnerable all across this country.
    And so I think, you know, at a time where we are constantly 
haggling, as sometimes we need to, over budget constraints, the 
importance of investing in this infrastructure now so that we 
don't make it more vulnerable later on needs to be high on the 
priority list because the damage to us in terms of our long-
term economy and competitiveness I think is really huge.
    Mr. Chairman, in addition, I think one of the things that 
we will come to learn, and not in this committee, is that we 
are challenged by our weather prediction assets, as well. 
Although we had a lot of warning with Sandy, it allowed for 
prepositioning and for moving in assets, that that is 
vulnerable to budgets as well. And the impacts, whether on the 
east coast or any of our other coastal areas, will be 
tremendous.
    And then lastly, I know with respect to Maryland, although 
I want to hear addressed why it is that we were denied the 
final kind of recovery and rebuilding, I understand the 
importance of balancing when it is appropriate for Federal and 
State assets to take over. And we have had the great benefit of 
Maryland being provided assistance in the last year's derecho 
and the three blizzards the year or two previous to that and in 
other storms. Maybe our Governor will appeal that decision. But 
I am just interested to know the process by which FEMA goes 
about making a final determination.
    And I thank you all for your testimony today.
    Mr. Mica. If there are no other Members that seek 
recognition, then we will go now to our panel of witnesses.
    And we have today appearing before the committee Craig 
Fugate, the Administrator of FEMA; Major General Michael Walsh, 
Deputy Commanding General, Civil and Emergency Operations for 
the Corps of Engineers; Mr. Fred Tombar, and he is the senior 
advisor to the Secretary for Disaster Recovery with HUD; Mr. 
Robert Latham, executive director of the Mississippi Emergency 
Management Agency; Mr. Mark Riley, deputy director, the 
Governor's Office of Homeland Security and Emergency 
Preparedness, State of Louisiana; and then Mr. David Popoff, 
and he is the emergency management coordinator for Galveston 
County, Texas.
    So, first of all, welcome. Thank you for your 
participation.
    The order of business will be we will hear from each of the 
witnesses; then we will go to questions. And I was told--we 
don't want to delay Mr. Fugate. So what we will do when we go 
to questions, we will limit the first round of questions to Mr. 
Fugate and then get the rest of the panelists, if that is--
well, that will be the way we are going to do it, so just want 
to let you know upfront, to accommodate the Administrator's 
schedule, particularly in this very difficult timeframe that he 
faces.
    So, with that, let me welcome the gentleman, former 
gentleman from Florida, who we are very proud of to have had us 
help in so many ways in Florida. And I think we are prone to 
every disaster. We have had hurricanes, multiple hurricanes, we 
have had floods, we have had fires. Everything but locusts we 
have dealt with. And now he is here leading the Agency in the 
capacity of FEMA director.
    So welcome. You are recognized.
    And let me tell you, too, I saw some long testimony here. 
You all have 5 minutes. Longer testimony we will put in the 
record. And some folks have done a great job in preparation. 
But this is an opportunity to summarize that and also have a 
discussion about where we are.
    So, Mr. Fugate, welcome.

   TESTIMONY OF HON. W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
 EMERGENCY MANAGEMENT AGENCY; MAJOR GENERAL MICHAEL J. WALSH, 
DEPUTY COMMANDING GENERAL, CIVIL AND EMERGENCY OPERATIONS, U.S. 
 ARMY CORPS OF ENGINEERS; FREDERICK TOMBAR, SENIOR ADVISOR TO 
THE SECRETARY FOR DISASTER RECOVERY, U.S. DEPARTMENT OF HOUSING 
    AND URBAN DEVELOPMENT; ROBERT R. LATHAM, JR., DIRECTOR, 
  MISSISSIPPI EMERGENCY MANAGEMENT AGENCY; MARK RILEY, DEPUTY 
DIRECTOR, GOVERNOR'S OFFICE OF HOMELAND SECURITY AND EMERGENCY 
 PREPAREDNESS, STATE OF LOUISIANA; AND DAVID J. POPOFF, CHIEF 
 EMERGENCY MANAGEMENT COORDINATOR, GALVESTON COUNTY OFFICE OF 
              EMERGENCY MANAGEMENT, STATE OF TEXAS

    Mr. Fugate. Thank you, Mr. Chairman, Ranking Member Norton, 
and other members of the committee.
    Mr. Mica. Could you pull that up a little bit, Craig?
    Mr. Fugate. Yes, sir. Is that better?
    Mr. Mica. Yeah.
    Mr. Fugate. You know, I submit my testimony for the record, 
and my talking points are here, so I will keep it brief.
    Mr. Mica. Without objection, it will be included in the 
record.
    Mr. Fugate. First thing, Mr. Chairman, I want to thank this 
committee and the House of Representatives for finally 
recognizing the sovereignty of the federally recognized tribes 
in your legislation which would have added them to the Stafford 
Act, allowing those tribes to request from the President a 
disaster declaration. That was an historical act that the House 
took. And, again, we eagerly await the Senate's action on that.
    The second thing, Mr. Chairman, I need to thank this 
committee and the appropriators for fully funding the Disaster 
Relief Fund in the previous budget. Those of us that were here 
remember Hurricane Irene and knew the challenges we had with 
very little funds left in that account and how it affected the 
response. Right now, in the Disaster Relief Fund we currently 
have a balance of $4.88 billion that has not been obligated 
yet.
    However, we do anticipate with Sandy, as well as other 
outstanding disasters--Congressman Long, we are still working 
in Joplin. We have still got people that need housing. We are 
still recovering from Irene. We had Isaac earlier this year. We 
had Debby in Florida. So we are working with the administration 
on what that supplemental request will require.
    The response to Sandy I think was due in part to a lot of 
the reforms that this committee took to amend the Stafford Act 
in the Post-Katrina Emergency Management Reform Act. It 
clarified roles and responsibilities and gave us tools that we 
have been able to utilize successfully.
    Challenges remain. And I think some of the questions, as we 
talk about how we are looking at the longer term recovery, 
actually come from the requirements of that act. One of the 
things that Congress directed that FEMA was to develop was a 
long-term recovery plan. We have developed the National 
Recovery Framework that recognizes that FEMA programs by 
themselves will not successfully recover from storms of the 
size of Sandy. We have both preexisting conditions, and we have 
other areas where FEMA programs are not the best tool to engage 
in the types of work that will need to be done.
    And so, in recognizing that and using the framework, we 
partner with HUD. And the President concurred that it made 
sense that FEMA's programs, which FEMA will continue to 
administrate, all those funds out of the DRF, all the recovery 
dollars, all the individual assistance, all the mitigation 
dollars, will be administered through the States at the 
Governors' direction based upon eligible requirements.
    However, those programs by themselves will not address the 
preexisting housing conditions, as was pointed out, where 
people who lived in basements have nowhere to go. We will have 
a lot of challenges dealing with the housing needs far beyond 
the FEMA repair programs. And that is why it is so important 
that HUD, Army Corps of Engineers, U.S. DOT, and other programs 
that will be required receive the funding, but that FEMA's 
programs, working in partnership with the rest of the Federal 
team, will be working to support the Governors and their 
communities in recovery.
    The other lesson that we learned from Sandy, as was pointed 
out, is when you have a disaster of this size and this 
magnitude, it takes a lot of people, it takes a lot of 
resources. Some of those resources, because of the way that you 
have supported FEMA in our budget, allowed us to do things this 
year we had not had before, one of which is a partnership with 
the Corporation for National Service, in utilizing their 
AmeriCorps program, where we had just brought in the first 
classes under a program called FEMA Corps and deployed people 
in support of our response. These individuals, many of them 
very enthusiastic in their opportunity to serve this country, 
were there on the ground in the hard-hit States providing 
direct services and helping people register with FEMA 
assistance.
    Another thing, Mr. Chairman, that we took from your bill is 
something that we know is a regulatory impediment, is that we 
have not allowed jurisdictions to use straight time or their 
regular public works and other debris folks to pick up debris. 
We always said it had to be the extraordinary costs, oftentimes 
causing the unintended consequences of greater costs as they 
contracted out for services rather than using their own 
resources. The President concurred, and through emergency rule 
we were able to provide for Sandy force account or direct cost 
to local jurisdictions for picking up debris as a result of 
Sandy.
    Again, we have tried to address the concerns of this 
committee, and, where we can, we have implemented those 
procedures.
    One last thing that we have done, in working with our 
partners, is we recognized that the current household 
reimbursement that we would provide under individual assistance 
is capped at about $31,000. We know that is insufficient to 
provide repairs to many of the homes that were heavily damaged. 
However, if we can provide temporary repairs, many people can 
get back in their homes while awaiting more permanent 
assistance, which may require other Federal programs.
    So rather than being constrained by that, we actually used 
our shelter authorities and are providing expedient repairs to 
homes that allow people to get back in their homes but do not 
necessarily constitute permanent work, reducing demand for 
temporary housing and allowing the people to stay in their 
communities. Again, these are authorities that we have been 
using to address the fundamental issues.
    But I want to get to the last thing, Mr. Chairman, you and 
the ranking member brought up, and that is how do we further 
speed up the process while maintaining accountability and 
ensuring that work that is to be performed in a disaster is 
that that Congress has authorized, without necessarily treating 
it as a reimbursement process that takes indefinite timeframes 
to complete the review and rebuild cycles.
    We have identified impediments and are willing and are 
eager to work with your committee on technical language to 
address some of the shortfalls that we have incurred in Sandy 
and continue to provide questions for us as we attempt to look 
at how to speed up more of an estimate process that provides 
protection for both the applicants but also the Federal 
Government, and also ensure that we don't unintentionally 
create situations that may result in IG findings that could de-
obligate substantial funds from jurisdictions after the fact.
    I think being a steward of the money sometimes, Mr. 
Chairman, is if we can't do it, we need to say no and not make 
promises or allegations that we can do something we can't. But 
when we do make a decision, I want those decisions not to 
penalize local jurisdictions if, after the fact, the IG finds 
other issues which would result in deobligations.
    And so with estimates, we want to make sure that as we go 
forward we are providing fiscal accountability to the taxpayer 
but also ensuring that the applicant isn't in a double jeopardy 
where perhaps the IG finds that they may have had a project 
that the funds weren't all required. Do they have to pay back 
the funds overages, or can they use those in their programs? 
What happens if we find that in those programs, they came up 
with an alternative project, and is the IG going to find that 
that was not allowable? So we want to work with the committee 
and look at technical language that would ensure that as we do 
these estimates, they are do done in good faith, both the 
applicant and the Federal Government have equal protections, 
but more importantly, it addresses issues, how many times can 
the applicant appeal that decision? How many times do we go 
back and look at projects, and what happens if the original 
estimate is up or down a certain amount, what happens to those 
shortfalls or to those surpluses? And we will need guidance 
from Congress to answer some of those questions, Mr. Chairman.
    Mr. Mica. Thank you for your testimony.
    We will now move to General Walsh with the Corps of 
Engineers.
    General Walsh. Good morning, Mr. Chairman and members of 
the committee. I am pleased to testify on the Corps activities 
to prepare for, respond to, and recover from Hurricane Sandy.
    In partnership with other Federal agencies and States and 
numerous local entities, the Corps has engaged in a multitude 
of response activities in an effort to mitigate the risk to 
public health and safety and to facilitate the recovery of this 
severe weather event. The Flood Control and Coastal Emergencies 
Appropriation Account provides funds for the Corps of Engineers 
to prepare for and implement emergency response activities to 
natural disasters, including flood fighting, infrastructure, 
search-and-rescue operations, and rehabilitation of flood 
control and hurricane protection structures.
    Disaster preparedness activities include the coordination, 
planning and implementation of response exercises with local, 
State and Federal agencies. These exercises provide Federal and 
non-Federal agencies an opportunity to plan for natural 
disasters and learn about partner agencies' capabilities, 
resources and their responsibilities.
    Corps leaders, including district commanders and tribal 
liaisons and emergency management staff, regularly meet with 
State, Federal and local officials and other interested parties 
to discuss Corps authorities under our Public Law 84-99, which 
authorizes the Corps of Engineers to undertake activities 
relating to advanced preparedness, emergency flood fighting 
operations and rehabilitation of eligible flood control works 
or shore protection features adversely impacted by flood and 
storm events.
    These meetings provide an opportunity to share lessons 
learned from previous flood events and conduct table top 
exercises, review flood fighting techniques and strengthen the 
collaboration among the Corps, State and local governments, as 
well as tribal entities.
    In preparation for Hurricane Sandy, the Corps took steps to 
ensure its personnel, facilities, and equipment were prepared 
and prepositioned before the event. The Corps took preventative 
measures, such as lowering the pool elevations behind our dams; 
closing hurricane barriers in Rhode Island, Massachusetts, and 
Connecticut; moving Corps vessels into safe harbors; and 
securing Corps construction projects and facilities.
    The Corps also deployed mobile command-and-control vehicles 
to key locations, prepositioned power generators and moved them 
into intermediate staging areas, located 512 truckloads of 
water to move into New York and New Jersey, as well as issued 
approximately 200,000 sandbags to the States.
    The Corps conducted pre-storm inspections along the coast 
by updating survey plans and employing extensive use of LIDAR, 
an optical remote sensing technology that is used to assess 
existing conditions on shoreline protection features. Personnel 
were activated to the district and division emergency operation 
centers, liaison officers were deployed to State emergency 
operation centers, and emergency support function team leaders 
and their assistants were assigned to the States. Before and 
during our response to Hurricane Sandy, the Corps continued its 
tradition of close collaboration and coordination with the 
Federal, tribal, and State partners. The Corps participated as 
an integral part in FEMA's Joint Information Center, 
coordinating activities among all the responsible agencies and 
transparently communicated with all the affected parties.
    Described as a superstorm, Hurricane Sandy brought over 80-
mile-per-hour winds and storm surges above 13 feet. Flood 
damages in the hardest hit areas severely impacted public 
infrastructure, flooding subways, highway tunnels, public 
housing structures, wastewater treatment plants, causing 
extensive power outages, impacting mass transit systems, and 
affecting public housing as well as private residents. Although 
the north Atlantic shore suffered severe coastal storm damage, 
existing Corps shoreline protection and beach nourishment 
projects performed as designed and helped mitigate the flood 
damages.
    In response to the disaster, the Corps of Engineers moved 
folks from six different districts, and their division 
emergency operation centers were activated in numerous 
response, and we surged a number of members forward. The Corps 
responded to mission assignments from FEMA and provided over 
1,000 highly trained technical personnel, including the 249th 
Prime Power Battalion, to 13 States.
    To date, the Corps has accepted 69 FEMA missions for over 
$380 million to New York, New Jersey, Massachusetts, Delaware, 
Ohio, Pennsylvania, Connecticut, West Virginia, and Rhode 
Island. These missions include emergency support function 
management, as well as technical assistance, temporary housing, 
commodities, temporary power, and debris management and 
removal. We worked closely with the Coast Guard to determine 
threats to navigation and waterway closures, and affected ports 
were cleared for operation.
    In conclusion, the Army Corps of Engineers continues to 
stand ready to respond to and assist in disasters like 
Hurricane Sandy.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions from you and other members of the 
committee.
    Mr. Mica. Thank you. And as I said, we will hold questions.
    Mr. Fred Tombar, senior advisor to the Secretary for 
Disaster Recovery with HUD. Welcome. And you are recognized.
    Mr. Tombar. Thank you.
    Chairman Mica, Ranking Member Norton and members of the 
committee, thank you for the opportunity to testify today 
regarding Federal actions in the aftermath of Hurricane Sandy, 
particularly by the Department of Housing and Urban 
Development.
    As senior advisor for disaster recovery to HUD Secretary 
Shaun Donovan, I have been deeply involved in those activities, 
including with respect to the role that President Obama has 
announced for Secretary Donovan.
    As I described in my written testimony, Hurricane Sandy and 
the nor'easter that followed caused widespread damage and 
forced hundreds of thousands of families from their homes. This 
is an issue of particular concern to me, as I directed a key 
project in response to Hurricanes Katrina and Rita, the Road 
Home Program in Louisiana. This project served as the single 
largest housing recovery program in the history of the United 
States.
    As someone born and raised in New Orleans, I have seen 
firsthand both the devastation that storms like Sandy and 
Katrina have brought and the tremendous results of sustained 
and effective recovery and rebuilding efforts.
    Let me describe HUD's participation in the ongoing response 
and focus on recovery efforts concerning the storm and discuss 
the role that the President has announced for Secretary Donovan 
with respect to Federal rebuilding efforts. HUD has played a 
significant role in response to recovery from past major storms 
and is doing so with respect to Sandy.
    It is important to note the unprecedented cooperation that 
is taking place across the Federal family and in cooperation 
with State, local, and tribal authorities. This cooperation and 
partnership is how we will continue to speed the recovery of 
affected areas. Key to HUD is providing immediate help to 
storm-displaced families to find temporary replacement housing. 
We have identified thousands of housing units, including more 
than 12,000 in HUD subsidized housing.
    HUD has also focused on help to persons living in and 
owners of HUD-assisted housing damaged and destroyed by the 
storm. For example, to rapidly deliver safe and decent housing 
to displaced public housing and subsidized multifamily housing 
residents we are helping to temporarily find places for these 
persons, giving boilers and generators to impacted developments 
that house low-income families, and waiving administrative 
requirements.
    Relief from the storm cannot be accomplished by the Federal 
Government alone. That is why HUD is working to encourage the 
private sector to help displaced families. Shortly after the 
storm, HUD Secretary Donovan reached out to several private 
sector organizations to encourage their involvement in this 
effort and a number have stepped forward. We have deployed 
scores of HUD personnel to help staff FEMA's disaster recovery 
centers and do other storm-related work.
    HUD has provided foreclosure protection to more than 
200,000 homeowners in affected portions of the tri-State area 
who are storm victims, through a mandatory 90-day moratorium on 
foreclosures. For storm victims who must rebuild their homes, 
FHA insurance is available for new mortgages, providing 
borrowers 100 percent financing, including closing costs. HUD 
has directed FHA lenders to provide insurance payments they 
receive related to the storm directly to homeowners to avoid a 
problem that occurred after Hurricane Katrina, where some 
mortgage companies used insurance payments that were supposed 
to be used to rebuild damaged homes for other purposes.
    HUD is also providing help to affected State and local 
governments. For example, we have provided waivers to existing 
rules so that Federal Community Development Block Grant and 
HOME funds can be used for disaster relief.
    On November 15th, President Obama announced that HUD 
Secretary Donovan will lead the coordination of Federal action 
relating to Hurricane Sandy rebuilding efforts. This role is 
different from the role the HUD Secretary usually carries out 
with respect to disasters in relation to the National Disaster 
Recovery Framework. Early in his first term, President Obama 
recognized that previous experience concerning Hurricane 
Katrina highlighted the need for additional guidance, structure 
and support to improve how we as a Nation address disaster-
related recovery and rebuilding challenges.
    In September of 2009, President Obama charged the 
Departments of HUD and Homeland Security to work together in an 
effort to establish the Long-Term Disaster Recovery Working 
Group, composed of more than 20 Federal agencies, HUD, DHS and 
the working group consulted with State and local governments, 
as well as experts and stakeholders, and worked on improving 
our approach to disaster recovery and on developing operational 
guidance for recovery efforts. As a result, FEMA published a 
final version of the NDRF in September 2011.
    The Secretary's responsibilities in this additional role 
will occur in coordination with the NDRF and will involve 
cooperating closely with FEMA and other agencies already 
involved in the recovery efforts. A key objective, as President 
Obama has directed, will be to cut redtape for State and local 
governments and tribes as they seek Federal assistance for 
longer term projects and identify priorities for community 
development. As a person who has been the lead for Secretary 
Donovan since the start of the administration on disaster 
recovery, I can tell you that cutting redtape and helping 
communities recover stronger, safer and smarter than before is 
a responsibility he takes seriously.
    Work on structure and functioning of this effort is 
proceeding rapidly. Secretary Donovan has already met with a 
number of most directly affected Federal, State and local 
officials, as well as many of his colleagues in the cabinet. He 
asked me to express that he is looking forward to working with 
this committee and other Representatives and Senators on this 
important effort.
    Thank you again for the opportunity to testify today. I 
will be pleased to answer any questions you may have.
    Mr. Mica. Thank you.
    And we will turn now to Mr. Robert Latham, who is the 
director of the Mississippi Emergency Management Agency.
    Welcome. And you are recognized, sir.
    Mr. Latham. Thank you, Ranking Chairman Mica, Ranking 
Member Norton and distinguished members of the committee, for 
allowing me the opportunity to provide you with a statement for 
the record on what Mississippi has learned in responding and 
recovering from more than 20 Presidential disaster declarations 
since 2000, including Hurricane Katrina in 2005.
    Today many communities in the Northeast are facing some of 
the same challenges that the Mississippi Gulf Coast experienced 
following Hurricane Katrina. The landscape in these communities 
is changed forever. Large disasters affect every aspect of a 
community, where people work, where people live, where they 
worship, where they raise their families, where they shop and, 
yes, where they work. Recovery is a shared responsibility and 
must be driven by a well thought-out long-term recovery plan. 
This strategy can only be successful when driven at the local 
level. I would like to emphasize that; it must be driven at the 
local level. The absence of such a plan will often result in 
hasty decisions guided by political posturing and constantly 
changing priorities.
    There are never enough resources to rebuild the way we want 
to, but that does not mean we can't rebuild better, smarter, 
safer and more resilient communities. By engaging the whole 
community, we provide a much better chance for success. Unity 
of effort, transparency in activities and managing expectations 
is critical; managing expectations is absolutely critical.
    Every decision must ask one question: Is what we are doing 
in rebuilding best for the community, and more importantly, can 
we sustain it? In the rush to recover, community leaders 
sometimes fail to take advantage of unique opportunities they 
have. By thinking beyond temporary solutions to move to more 
permanent sustainable solutions, leaders can make the community 
attractive for repopulation and growth. Basic Government 
services must be reestablished, and shifts in population must 
be considered for housing, schools and health care. They must 
address, how do we stimulate an economic recovery and restore 
our tax base? And how can we leverage the resources, which are 
limited, from the very sources to maximize what we want to 
achieve?
    Avoid the temptation to constantly shift priorities for 
short-term gains. Housing, transportation, schools and business 
development must be considered when repairing or rebuilding 
infrastructure. Stafford Act funding never gets you back where 
you want to be or makes you whole again. Public-private 
partnerships is critical.
    So what are some of the barriers to recovery? The Public 
Assistance Program is a reimbursement program. Current law 
restricts FEMA from providing recovery funds based on 
estimates. Quite often, it makes sense to build a community 
back with a different footprint than what existed pre-event. 
When this happens, communities are faced with an extensive 
approval process for alternate or improved projects. The 
current Disaster Assistance Policy cap State management cost is 
3.34 percent of the Federal share of public assistance program 
cost; far much too inadequate to help a community recover like 
it should. Lack of flexibility in the Public Assistance Program 
often limits or restricts rebuilding a community the way that 
it should be.
    But applicants must understand that they cannot expect FEMA 
to pay for everything. Understanding Stafford Act eligibility 
early in the process and managing expectations in this process 
is critical to minimizing conflict throughout the recovery and 
delay in rebuilding. Many Federal agencies contributing funds 
to a recovery project must conduct its own environmental and 
historic preservation reviews. This oftentime results in 
multiple reviews for the same project resulting in extensive 
delays in the rebuilding.
    So what can with do to make the recovery process easier? 
FEMA and States must continue to work to identify potential 
opportunities in the PA program to make it easier for 
applicants, including implementing the results of the PA pilot 
program that was tested from June 2007 until December 2008. 
Congress should work with FEMA to change the language in the 
law that would allow FEMA to advance the Public Assistance Fund 
using estimates similar to block grants allowing for 
flexibility within specific guidelines for applicants, explore 
additional opportunities for PA pilot projects that can 
expedite the recovery process and help applicants recover; 
increased State management costs from the current 3.34 percent 
cap to 7 percent so grantees and subgrantees can afford what 
managing recovery actually costs; and streamline environmental 
and historic preservation reviews.
    In the face of disaster comes a tremendous opportunity for 
a community to build back smarter, better, stronger, safer and 
more resilient. Every disaster begins and ends locally. 
Successful recovery demands local leadership with a vision and 
a strategy and the resources to help achieve their community 
rebuilding efforts. Decisions must be made based on what is 
best for the community, not what is best for the State or the 
Federal Government. Finding ways to make the Public Assistance 
Program work better and more efficiently could significantly 
reduce recovery time and expedite disaster closeout. The 
consequences of every disaster are the same, except for the 
size of the event, the population and the cost of the recovery. 
We have to take advantage of the lessons learned in the past if 
we are to change the future.
    I appreciate the opportunity to appear before this 
committee to share my experiences in disaster preparedness 
response and recovery in Mississippi.
    Mr. Chairman, that concludes my remarks. I would be glad to 
answer any questions that you or the committee may have.
    Mr. Mica. Thank you.
    And will now turn to Mark Riley, who is with the Governor's 
Office Emergency Preparedness, State of Louisiana.
    Welcome. And you are recognized.
    Mr. Riley. Thank you. Louisiana is currently managing $14.5 
billion in Stafford Act funding for the recovery from nine 
Presidentially declared major disasters since Hurricanes 
Katrina and Rita struck in 2005. As a result of these events, 
we think of Louisiana as the largest living laboratory for 
recovery in the Nation, and we have a lot of experience.
    On behalf of the State of Louisiana, I would like to thank 
this committee for the opportunity to discuss our experiences 
with disaster recovery.
    Thank you, Chairman Mica, Ranking Member Norton and 
distinguished members of the committee, for taking an interest 
in providing leadership in this very vital discussion.
    Currently, there is considerable conversation among 
recovery professionals in both the public and private sectors 
that Federal recovery assistance needs to be rethought. We 
agree. The current process is too cumbersome, too bureaucratic 
and does not support the rapid, strong, resilient recovery of a 
community. Today we want to talk about the difficulties of 
recovery which Louisiana has experienced and New York, New 
Jersey, Maryland, and other States impacted by Hurricane Sandy 
are beginning to experience.
    Although we are discussing the Federal recovery process, 
that process is only one of the challenges that communities 
face during recovery. Seven years after the Nation's largest 
disaster, Hurricane Katrina, communities in Louisiana are still 
struggling, and the problems exceed just the implementation of 
the Stafford Act. To illustrate the issues of delivery of the 
Stafford Act Public Assistance Program, I would like to present 
an exhibit to your right and bring your attention to the 
foldout that was provided to the committee. It chronicles the 
project worksheet of the development of the Youth Study Center 
in New Orleans. Before I begin, let me emphasize that this is 
not an anomaly but is typical of thousands of facilities that 
were damaged by disasters in Louisiana. The Youth Study Center 
had significant damage. And from the city's perspective, 
supported by an analysis from its professional architects and 
engineers, the building was eligible for replacement under the 
Stafford Act.
    However, a year after the storm, despite the assessment 
from the city's professionals, FEMA would not agree that the 
building needed to be replaced and fixed the value of repair at 
$1.6 million. More than 7 years later and 182 meetings, FEMA 
has agreed to the replacement of the facility at $27 million, 
an increase of $25.5 million, but they still do not accept the 
architect and engineer's design assessments as to the number of 
pilings that are needed to support the facility. That shortfall 
is still $1.2 million. If we come to an agreement by the end of 
the year and after the city engages in design bid and 
construction, it is projected that the building will be 
completed in the year 2016, 11 years after Hurricane Katrina 
made landfall. As the timeline illustrates, this process does 
not support a rapid recovery.
    To compound matters, FEMA has limited the availability of 
direct administrative costs. In our single example, the city 
has incurred considerable cost preparing for and attending the 
182 meetings for the Youth Study Center. These costs will not 
be recoverable under the new FEMA policy, further inhibiting 
the city's ability to recover.
    Again, the Youth Study Center is not an anomaly. The 
challenges they face can be multiplied by thousands of similar 
projects across Louisiana. Another example is Charity Hospital 
in New Orleans. Originally estimated at $28 million for repair, 
we were finally able to break ground this year, after 7 years 
of disagreement and bureaucracy, for a replacement hospital 
valued over $530 million.
    Just for Hurricanes Katrina and Rita, we have over 2,000 
projects that have doubled in funding. More than 450 have grown 
by a factor of 10. And 1,300 projects have been amended more 
than five times. Clearly we need a recovery program that 
results in more accurate and timely identification of eligible 
work.
    In my written testimony, you will see some recurring 
themes. The size of a disaster significantly changes the 
requirements of delivering of disaster assistance. Time is 
critical. The FEMA PA program is too complex. Existing policies 
and processes are inconsistently applied at the ground level. 
Policies are inconsistent with the Stafford Act language and 
intent and limit authorized recovery support. Capacity for 
recovery from catastrophic events is limited at all levels, but 
especially at the local level.
    Let me be quick to say FEMA is a good partner, especially 
in the response phase. However, it is our experience that the 
regulatory process and its implementation is unnecessarily 
highly bureaucratic and cumbersome, seriously complicating a 
community's recovery from a disastrous event. Again, I thank 
the committee for its leadership and attention to recovery 
issues, and I am available for any questions.
    Mr. Mica. Thank you.
    And we will turn to David Popoff, for our last witness, 
with Emergency Management for Galveston County, Texas.
    Welcome. And you are recognized.
    Mr. Popoff. Good morning, Chairman Mica, Ranking Member 
Norton and distinguished members of the committee.
    I am honored for the opportunity to provide testimony on 
this important topic. I along with a small and highly skilled 
staff are responsible for overseeing disaster response and 
recovery for all the unincorporated areas of Galveston County. 
I report directly to County Judge Mark Henry.
    First of all, I would like to thank the committee for their 
strong support in the Emergency Management Performance Grant 
Program, which is critical for building emergency management 
capacity at the local and State level. I would also like to 
thank you for your critical role that you played in the post-
Katrina Emergency Management Reform Act to strengthen FEMA.
    Galveston County has a population of 300,000, which 
includes Galveston County and the Bolivar Peninsula. With about 
60 miles of coastline, our population swells during hurricane 
season. Most of the population in Galveston County lives in the 
10 incorporated cities on the mainland. Galveston County is a 
great place to live, work and play.
    Since 1960, Galveston County has been declared a 
Presidential disaster area 19 times. Galveston County also has 
the unfortunate distinction of being home to two of the worst 
Nation's disasters: the 1900 storm, which killed 6,000 people, 
and the 1947 Texas City explosion, which killed 581 people, 
injured 5,000, and vaporized all but one of the members of the 
Texas City Fire Department. As you can see, I work in a dynamic 
threat environment, so we take preparedness seriously.
    Our hearts certainly go out to all the people impacted by 
Superstorm Sandy. One of the most critical components of a 
hurricane response doctrine is never stop learning. Everything 
we do is learned at the pointy end of the stick. In the last 
decade, we have had three signature storms that we have learned 
from. The first one is Katrina. Katrina taught us about mass 
care and sheltering. From that experience came initiatives to 
pre-identify shelters and develop more detailed shelter concept 
of operations and to locate missing people.
    From Hurricane Rita, we learned about mass evacuation of 
major population centers. Who will ever forget the cars stuck 
in gridlock that ran out of gas in the Texas heat. From that 
experience, we developed traffic management plans; we developed 
State fuel teams to supply fuel to people who were evacuating 
and people who stayed after the storm. We also redefined our 
evacuation zones through a massive outreach program, and today, 
we actually use zip codes.
    Hurricane Ike was a dangerous storm beyond all 
preconceptions. Hurricane Ike's path was eerily similar to the 
1900 storm. Damage to Galveston County was catastrophic. Early 
recognition to the threat is critical. They say it was only a 
Category 1. Reclassifications of hurricanes is a priority one 
to dangerous, major, catastrophic. We need to stop using the 
numbers now.
    Cooperative relationships are critical. Galveston County 
has put a great deal forward in bringing together the entire 
team; the local, the State, the Federal agencies, 
nongovernmental organizations, private industries. We produce 
policies, procedures and we plan, train, and we operate 
together. Evacuation needs to be done, but it must be done 
quickly and remove the perceived barriers.
    The first point-to-point sheltering agreement was penned by 
the city of Galveston and the city of Austin after Hurricane 
Rita. No longer will we just tell people to go north and hope 
for the best.
    Reentry and recovery: Hurricane Ike destroyed the 
infrastructure and disabled most of ourmodern conveniences. We 
are fortunate that Texas deployed the Public Works Response 
Team. Debris removal was a challenge because most of the debris 
was on private property or in open fields. Bolivar Peninsula 
was a devastated community, so a local team was formed, and 
with extensive outreach, we were able to produce the Bolivar 
blueprint, and Bolivar is now a thriving community.
    Jurisdiction struggled with a wide variety of FEMA 
interpretations of policy, particularly with public assistance. 
This slowed down the completion of a project. Just as we 
thought we were in agreement that we reached on a project, it 
would require us to start over. We applaud the effort of 
Director Fugate for obtaining consistency in urging his 
recovery officials to get it right the first time.
    In conclusion, thank you for allowing me to testify today. 
On the Texas Gulf Coast, we say we have two seasons: We say we 
have hurricane season and preparing for hurricane season. As I 
have always said, emergency management is open book; we learn 
from our neighbors; and we won't fail if we use the system. 
Thank you.
    Mr. Mica. Thank you.
    I thank all the witnesses.
    And as I said, we will turn first for questions to 
Administrator Fugate, and then we will come back to the rest of 
the panel. And I will lead right off.
    Again, thank you for your work and your efforts and 
participating with us here today. I was pleased to hear your 
testimony, much in support of our pending legislation in the 
Senate and how you used some of that as a template for trying 
to take action and initiatives, but you do need the law.
    I might say one thing to you. I know OMB has not given--I 
don't think they have given you a sign off on providing us with 
the specifics, but any technical assistance you can provide to 
the committee so that we can improve the Public Assistance 
reforms in our bill, we would welcome that. The bill--you know, 
2903, I believe is the number, is over in the Senate--we are 
welcome to improving that. I heard a couple of suggestions here 
today, too, that we might consider in reform of our reform bill 
or additions to our reform bill. But we think that--we believe 
that, again, hearing the testimony of folks that have 
experienced problems, and a lot of the bill came actually from 
Members who had experienced problems in their own districts or 
States dealing with past storms, has the tools that will help 
you. Is that acceptable? Can you agree to participate.
    Mr. Fugate. Yes, sir, Mr. Chairman.
    Mr. Mica. OK. Good.
    And let me jump now to a couple of major questions. One, 
you indicated we have about $4.8 billion left in the account. 
You have moved quickly to distribute some funds and make up--
how long will that last, and how soon do you expect a 
supplemental bill to come to Congress?
    Mr. Fugate. Well, Mr. Chairman, based upon what we are 
seeing and some of the obligations, as the Corps pointed out, 
some of the mission assignments we have already made that have 
already been subtracted from that, we would look at early 
spring. We don't have an exact date. Part of this will be as 
projects are coming forth, particularly on some of the large 
projects that we are dealing with. But we will look at early 
spring. We would probably reach the point where we would have 
to go to immediate needs funding.
    Mr. Mica. So you probably won't submit to Congress a 
supplemental and the administration won't until after the 
beginning of the year?
    Mr. Fugate. Mr. Chairman, I can't speak to that. I just 
know that where the DRF stands, we do not anticipate immediate 
needs funding until early spring. And again, thanks to the work 
of this committee and others making sure we were fully funded 
gives us that capability to continue a response. But we are 
working very closely with OMB as well as other Federal agencies 
as the administration looks at what additional funds will be 
required for Sandy.
    The one thing I am confident is, Mr. Chairman, FEMA will 
need supplemental funds, not this calendar year but this fiscal 
year, in order to continue the response to all other disasters 
as well as the obligations that will be expended in this fiscal 
year for Sandy.
    Mr. Mica. We have heard other disasters, Irene, still back 
to Katrina, in which there are obligations that have been made. 
Any estimate as to what that total is?
    Mr. Fugate. Based upon the $4.8 billion, that is already 
factored into what we are requesting----
    Mr. Mica. That would cover it?
    Mr. Fugate. Yes, sir. We were actually looking at, based 
upon your full funding of the DRF outside of Sandy, we actually 
had funds to go through the fiscal year, based upon not only 
your appropriations but also as we have closed out older 
disasters that put money back in the DRF. So we were not 
anticipating, outside of a catastrophic disaster, any request 
for additional funding. So, obviously, Sandy falls in that 
category as a catastrophic disaster. So it will be in addition 
to all of the existing disasters that we are working.
    Mr. Mica. Well, some of the temporary housing assistance we 
have provided will soon be expiring. Will there be 
opportunities for renewal? And then you heard one of the things 
we wanted to do is have HUD in here to explain what they were 
doing. And could you describe the cooperative effort, and will 
that be sufficient? But we were in New York and also--well, 
Manhattan, which is a whole unique venue for a disaster, and 
then Staten Island, I guess Long Island, New Jersey. They have 
very unique housing requirements and also higher costs. So how 
will what HUD has committed to and the President has said they 
are going to do coordinate with your efforts?
    Mr. Fugate. Mr. Chairman, the housing program, we are 
actually looking at three pretty substantial areas. The first 
one was the temporary sheltering. And that is where maybe the 
home wasn't destroyed, but they couldn't get back in; they had 
power outages or other damages. We would provide in 
cooperation, this is a State request, on a cost share basis 
short-term mainly hotels, motels, short-term leases, measured 
in weeks, and we are extending that as the States request it. 
The traditional temporary housing where people have qualified 
and are leasing for a longer period of time goes to 18 months 
and we are working that. The other thing was, and this is 
something the committee had looked at before, is, how can we 
repair damaged homes to the point where if they could get back 
in their homes but it is not permanent long-term work, would 
that be more cost effective than renting a hotel or renting an 
apartment? So we are implementing that. But I think you hit 
upon one of the key reasons why we have been working very 
closely with HUD. Our programs do not do the permanent work 
that will be required to ensure there is sufficient affordable 
housing in these areas of devastation. And that is that part of 
that rebuilding that the Stafford Act doesn't address, but if 
we are not successful, we will end up like we did in Katrina 
where people were in temporary housing units, not for months 
but for years. We want to avoid that. That is why we thought it 
was important, why Secretary Donovan stepped up to the 
challenge as the President asked. If we don't have housing 
solutions in the short term, the temporary programs will not 
provide the long-term solution.
    Mr. Mica. From information provided by your staff to me 
earlier, there were 1,100 approximately housing units 
purchased. I know when we went through Katrina, we had hundreds 
of thousands of trailers, and we had them condemned because of 
the formaldehyde, and then we had them in storage and then we 
had to pay to get rid of them. It turned into a nightmare. Is 
this the only anticipated acquisition of housing from FEMA? I 
have also encouraged some temporary housing that could be 
reused. There are different products on the market. These 
will--the ones that I was told are not recyclable or would be 
pretty subject to some type of demolition or disposal at the 
end, the 1,100 that have been required--or I am sorry, not 
required; acquired.
    Mr. Fugate. These were units that we had that we moved into 
the area. We are working with the State housing task force. We 
did this preliminarily based upon not so much in the urban area 
but out in Nassau, Suffolk County and places in New Jersey 
where they indicated that may be a solution. Our preference is 
rental property. Quite honestly, Mr. Chairman, if we can put 
money back in the local economy, we would much rather rent than 
have to do the temporary housing. And we have moved towards 
manufactured housing to replace the temporary units that we 
used previously.
    But again, we are making options available to the State-led 
task force. How many they use we are not sure yet, but we 
thought it was prudent to move them in the area based upon the 
initial numbers----
    Mr. Mica. Do we have any--maybe you could supply the 
committee with, because they had told me the same thing but 
haven't seen any figures, and wondered what is going to be 
acquired and, again, what the needs will be. We have no 
assessment complete yet?
    Mr. Fugate. Mr. Chairman, I don't at this point, looking at 
what I have seen, I don't anticipate us acquiring any more 
additional units based upon some of the earlier reports. But 
again, as we work with this housing task force, we are going to 
find what the longer term needs are going to be. And quite 
honestly, it is going to come back to how much of that housing 
can be built in the timeframes that will be needed.
    Mr. Mica. Just two quick other questions: One, Katrina got 
so bad, we had such a backlog. We had the guy from--this guy 
was in Charity Hospital. And I had that opened up, even though 
it was closed, and we held a hearing in there to try to move 
that forward. I guess you are breaking ground you said this 
year. But we had a huge backlog, thousands I believe it was, of 
public projects that were being debated. We came back and 
changed the law and instituted arbitration. But staff tells me 
that was only good for Katrina.
    We don't have that in the 2903, but I would like your 
recommendation for arbitration or mediation, particularly on 
the public side, but I mean, it can also work on the private 
side because sometimes you are held to you know certain 
requirements and things do get sticky, but they need to get 
more than anything resolved. What do you think?
    Mr. Fugate. Mr. Chairman, I would like to think we make the 
best possible decisions we can. But I also recognize, 
particularly if we go to cost estimates, what happens when we 
cannot agree with the applicant on that estimate? What is the 
appeal process? And as the ranking member has oftentimes said, 
when you are appealing to yourself, the answer is usually going 
to be the first answer you gave. Why would you change your mind 
if you already told them no the first time? So I would look at 
that, sir, as we are looking at how to best facilitate public 
assistance, either in a grant process or some kind of a cost 
estimate, is how do we ensure that the States and locals are 
provided ample protection against arbitrary decisions on the 
Federal side but, on the other end, we don't create an 
unnecessary administrative process which then adds a regulatory 
burden to the Federal taxpayer. So it has got to be balanced. 
But I tend to come back to----
    Mr. Mica. I go back to Mr. Riley's chart you have got up 
there. He has got the large one up there that everybody can 
see, and actually produced a brochure. But 7 years of the thing 
going on and on, there has to be some ability for us to move 
forward in a more expedited fashion.
    Mr. Fugate. Well, Mr. Chairman, that is one advantage that 
Louisiana has on all of those outstanding projects that they 
have not agreed with. They can always go to arbitration.
    Mr. Mica. Well, again, the question would be, we have seen 
what happened in Katrina and we want also our legislation to 
reflect opportunities to resolve this so we don't have these 
situations occur in the future. So I will take your counsel.
    Mr. Fugate. Mr. Chairman, my recommendation is, you need to 
talk to the Governors and to the local officials. If we go the 
route of an estimate, how do we avoid multiple appeals to that, 
and how would they feel most comfortable that once we do an 
estimate, we are done? Because I think if we continue to come 
back after that, it isn't an estimate, it is just a project in 
another name. But if we go with a true estimate where we say we 
have made a decision, we are done, I would talk to the States 
and locals how they want the assurances that later on, they 
have not made a decision that cost them unfortunately that they 
didn't get what they needed to be rebuilt.
    Mr. Mica. Well, again, we are looking for solutions and 
also ways to expedite this process. We will work with you. 
Finally, just one little thing. We have done a good job in the 
past getting water, some food supplies, things in reserve. And 
I see now repeated again, and this northeast storm was no 
different, the difficulty with getting fuel and power, 
particularly with a jam up we had of people in long lines and 
everything, it seems like we could contract with simple 
suppliers and maybe have some equipment. I have seen where they 
can even put meters on some of these tankers and get them into 
areas. They prepositioned a lot of the power assistance. We 
prepositioned, and you have done a good job with food and some 
basic supplies, but I think we need some plan for 
prepositioning fuel and power, and we will be glad to work with 
you on that.
    Mr. Fugate. Mr. Chairman, the inherent danger of trying to 
replicate what the private sector does every day, just to give 
you an example, on fuel we had contracted with a defense 
logistic agency that was providing emergency fuel to responders 
as well as to some of the public. The total amount which was 
having to go again oftentimes competing with the same vendors 
that were doing it locally, so we were having to even bring 
fuel from further away. I don't think we ever got to one-tenth 
of what the total demand on an average day was in New York. I 
think part of this is we need to look back at critical 
infrastructure, which is primarily owned by the private sector 
as an investor-based operation and look at how we can ensure 
resiliency in those systems. For us to replicate that and on 
the scale that would have been required would be staggering.
    Mr. Mica. Again, I don't advocate replicating it. It 
somehow hasn't worked. I think we need to find a better 
mechanism for power and then fuel. Power, most of our problems 
I was told was from the public utility, I guess in Long Island, 
and they dropped the ball there. The others were 
prepositioning, and that went off very well. But I meant power 
to essential fuel generating and also fuel providers. And that 
can be brought in I think faster in the future. So we should 
look at that. Not getting into the weeds too much, and we will 
have some more discussions on that, let me turn to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I have been listening closely, Mr. Fugate, at what you have 
been saying about cost estimation, especially since there are 
difficulties. And you have talked about the appeal process. 
That seems to be the basic difficulty. We got so fed up with 
money lying on the table and the appeals during the Katrina 
recovery process, that is how we came up with the arbitration 
notion. One thing arbitration, where both parties have to agree 
on the arbitrator, is that is the final result. And I am not 
sure there is any way to get around it. As you have said, and 
as we said here, you can keep appealing to yourself and 
expecting a different answer.
    Now, I understand there was a pilot project, and I am going 
to ask you about that first, that there was a pilot project for 
cost estimation up to half a million dollars, projects of half 
a million dollars or so. And that while some chose cost 
estimation, others, which I take it would have been expedited, 
others chose to go with the old system. And to expand, part of 
the difference was that if you used cost estimation, you gave 
them flexibility on straight or overtime; whereas, with the 
present system, you pay for straight time.
    What did that pilot project--how did that pilot project 
inform you? What did it tell you about whether or not cost 
estimation is just a figment of our imagination? Here you have 
done something on the ground that I would respect. What did you 
learn from the pilot project? Because people could choose one 
or the other. They didn't choose cost estimation. Why they 
didn't choose it, I would be interested to know. And I would be 
interested to know whether or not choosing cost estimation to 
get rid of debris--nothing is worse than living in such a 
storm-tattered place and the debris is there month after month 
after month. Did the jurisdictions themselves believe that 
better to have it lie there than to go to cost estimation? And 
if they didn't use it, why didn't they figure they should use 
it? Why did they go for the sure thing?
    Mr. Fugate. I would hesitate to say exactly why. I know 
some of the reasons were this. In the cost estimation, if it is 
going to be working and it is going to be effective, is we come 
to a number, we agree to it and we are done. I think the 
concern has always been we may not know all of the cost at the 
time the estimate is made. And the question was always, well, 
what if we find out it is going to cost more? If we agreed to 
the estimate, we can't get any more money. If we go through the 
traditional process, we literally can come back multiple times 
as we see incremental cost increase and add those in.
    I think, though, with debris we are gaining more confidence 
in the Corps modeling. And having looked at what the Corps 
models are versus actual debris cost, I think we can come up to 
a much closer number. But it is always the concern that if I am 
an applicant, I always want to come back and if it cost me more 
money, get more money. Well, that kind of defeats the purpose 
of doing it as a cost estimate.
    I think there is another part of that, though, that does 
make more sense. And this goes back to the charities and these 
other big projects. And that is looking at a design-build 
phase, where we do a design phase where we fund them to come in 
and take these complex projects, get their cost estimates, get 
their design, do all of the environmental historical review, 
come in with the architect or the professional engineer 
certifying these are the costs and we agree to that. And then 
the second part of that is, we issue the grant and we are done. 
That would get a lot of these potential unknowns out early, it 
would get a lot of the regulatory issues on the front end, so 
we know what those costs are, and once we have an agreeable 
cost, then we issue the grant. As it is now we do a 
reimbursement process where, again, we don't give them all the 
money upfront, it is reimbursed, it takes time. We would like 
to approach that, but we think there is some technical issues 
we have. And counsel may be more aware of this, but we are 
running into issues where actual cost versus estimated cost and 
also, what happens if the project comes in under what we 
authorized, what happens with those dollars if they have a 
surplus, and do they have any recourse if it turns out the 
project cost them more money? And again, we are back to they 
want to come back and get more funds, which is a more 
traditional project. So we are working this. We think if we can 
get the skill to make sure States and the locals are 
comfortable with these decisions, it is faster for everybody to 
do this as a block grant estimate versus a project that is 
reimbursed that literally can take years in the rebuilding 
process.
    Ms. Norton. Mr. Fugate, have we once and for all gotten rid 
of the process, which perhaps was even worse for us during 
Katrina, where the Government hired somebody to do an estimate, 
the State hired somebody to do an estimate, and we paid for 
both of these estimates and then we are caught betwixt and 
between these estimates that we have both paid for? I thought 
we agreed that that was not the most cost-effective way to get 
an estimate; that we could agree in the beginning on somebody 
that we both agree should come up with an estimate and then we 
would go with it. Are we using that?
    Mr. Fugate. Yes. Let me give you a specific example. I was 
up at NYU University's Hospital, which was heavily damaged in 
the flooding. I had my senior public assistance official, Bill 
Roche, with me. We were walking through the basements. Senator 
Schumer had brought us there. Devastation. The facility wanted 
to know what kind of documentation; do we need to get our 
inspectors down there to look at the electrical system that had 
been damaged by the seawater? And Bill said, look, if you will 
get your engineer to certify the damages, we will accept it, we 
will not have to come down here and look at it. So we are--
again, I won't say it is 100 percent. There is probably 
somebody that didn't get the email. But if you have a licensed 
engineer, professional engineer, architecture or other licensed 
individual certifying the damages, we will accept that and have 
been using that to make those determinations.
    Ms. Norton. That is a very important efficiency, and I 
commend you on that.
    I am very interested in this program that apparently is 
being used in New York to allow people to stay in their own 
homes without power instead of going to temporary housing. I 
don't know if we have ever done that before. It does seem to me 
that that is very important to do. And does it apply to people 
that live in apartment buildings? Does it apply to other States 
other than New York? The only information I have is New York.
    Mr. Fugate. Yes, ma'am. This is something New York has 
asked. We have made it available to other States to have 
individual assistance. What we are looking at is those people 
that cannot take power, you know this is where the power has 
come back on, but they can't take power because they had water 
damage; we are providing funds to do more than just--if you are 
familiar with the blue roofs, where we do temporary roof 
repairs trying to get people back in their homes, we have 
extended this to look at what things can we do just to get the 
power turned back on so people could stay in their homes and 
not put a demand for other housing assistance at a much greater 
cost to the taxpayer. It didn't mean we are doing all the 
repairs, but we are doing just enough to get the power back on. 
In some cases, because of the way their homes are built with 
basements, we are having to look at also water heaters and 
boilers. But we are just doing enough so they can get back in 
their home. They are still going to have to take care of 
permanent repair costs and are going to probably still need 
help from HUD and other programs or volunteer agencies like Red 
Cross. But this at least gets it back where the power company 
can hook them back up and they can stay in their home while 
they make repairs versus leaving their home, their community 
and going to a temporary housing source.
    Ms. Norton. And does it apply to people who live in 
apartment houses?
    Mr. Fugate. To be honest with you, I don't think so, 
because in those cases we are dealing with an occupant where we 
either are working with the housing authority, which HUD is 
working very closely with those on bringing in boilers and 
other things to get power back up. So this is mainly directed 
at attached or single family, not so much the large apartment 
buildings. But HUD has been working with both those of the 
housing authority and those that provide low-income housing and 
are providing assistance as we are supporting them in the Corps 
in getting their critical life support up, not only power but 
also boiler operations so they have heat.
    Ms. Norton. And perhaps this wouldn't work in New Jersey, 
where so much of the housing was wiped out, but is there any 
reason why this stay-in-place approach could not be used in New 
Jersey or some of the other States that were devastated by 
Sandy?
    Mr. Fugate. No ma'am, it can be used. In fact, we are 
working with the State of New Jersey's State-led housing task 
force. This is one of the tools that we are giving them as they 
look at what those needs are and how to best meet their needs.
    Ms. Norton. Could I ask you, HUD and FEMA have always 
worked when there has been a major storm. How would you 
describe the major difference now between this new relationship 
with HUD, with HUD as apparently the lead coordinating agency 
and yet FEMA, and you can see that we are talking to you first 
and foremost here this morning, still in charge of much of what 
the public expects. What is the difference between what you are 
doing now and what you were doing for example in Katrina?
    Mr. Fugate. I think, in Katrina, the problem was there was 
not a concerted effort to address what the housing needs would 
be. And as Fred pointed out, in some of the programs he ran, 
the Federal Government never really anticipated that kind of 
rebuilding efforts, and initially, everybody turned to FEMA. 
FEMA doesn't do a lot of the permanent work, nor do we deal 
with the preexisting conditions. So it is a natural fit of 
existing programs and authorities that take what we can do in 
the short run and match it up with what HUD is best at, which 
is providing longer term affordable housing solutions.
    And we are going to go far beyond housing. As was pointed 
out by several members, we have transportation issues that go 
far beyond merely repair work. We have Corps of Engineer 
beaches that are authorized. But again, as the damages mount 
funding those programs. So as we looked at this it became clear 
that we are dealing with not only State issues; we are going to 
have regional issues that go beyond the States. And so having a 
cabinet level member leading the non-Stafford Act programs and 
funds and plugging in so that, as we go forward with our short-
term programs, there is an end where there is housing 
available. What we don't want to get into is what we saw in 
Katrina. We do a lot of short-term events and 5 years later 
people are still living in a trailer because there is no 
housing solution at the other end. And again, this goes far 
beyond what FEMA does; it goes far beyond the Stafford Act. The 
Stafford Act is a key part of this initial fix or repair, but 
it does not get to the preexisting conditions; it does not get 
into things that FEMA has historically not done well that other 
programs are much more successful in doing with their 
authorities; and it doesn't get to some of the regional 
challenges that we have in that dense populated the area.
    Ms. Norton. So HUD will be dealing exclusively with 
preexisting conditions, what is to be rebuilt and not FEMA?
    Mr. Fugate. I would let Fred speak to it, but I think the 
term is rebuilding and looking at how do we work long-term 
housing solutions, particularly given the density of some of 
the housing authorities as well as other parts of the 
communities that were devastated?
    Ms. Norton. I have one more question. When we did the Post-
Katrina Act, in fact after 9/11, when FEMA was made a part of 
the Department of Homeland Security, we were focused mainly on 
terrorism. Now what we have learned as a result of the 
droughts, as a result of Sandy, as a result of Katrina, is 
that, I don't know, we may not have another 9/11; we certainly 
have done a lot to prepare in case we are faced with another 
tragedy of that size.
    But we almost surely are finding ourselves each and every 
year with a major unprecedented set of storms--not just storms. 
I don't even know what is happening on the west coast, but that 
looks like something other than their usual rainfall.
    Has being in the Department of Homeland Security been of 
any material advantage to FEMA, as opposed to when FEMA was not 
a part of the Department of Homeland Security? And as a State 
official, you have participated in the before-and-after of this 
question.
    Mr. Fugate. The short answer is yes, because of the 
availability of the other resources.
    I will give you an example. One of the things that we have 
launched that I didn't put in my comments, in my testimony--it 
is a fact that FEMA has a finite workforce. And even with our 
reservists and the ability to call people up, it takes time to 
get people into a disaster area. We were able to leverage 
Department of Homeland Security and send over 1,200 Homeland 
Security folks from various components of the Department into 
New Jersey and New York to do the initial response support. 
That would not have readily been available without that.
    So I would continue to support that our role within 
Homeland Security, as you have directed in that act, as the 
principal advisor to the Secretary and the President as well as 
Congress on emergency management, thrives in this environment. 
And it is the additional resources we can tap in to as part of 
the Department that enables us, in some cases, to actually 
augment our FEMA resources.
    Ms. Norton. Well, thank you very much, Mr. Fugate. And, 
again, thank you for your work on Sandy, in particular.
    Mr. Mica. Thank you.
    Other Members?
    Mr. Harris?
    Dr. Harris. Thank you very much, Mr. Chairman.
    Administrator Fugate, thank you for appearing before the 
committee today.
    I was informed yesterday that Maryland's request for 
individual assistance had been denied. Given that some of the 
counties in my district are some of the poorest counties in 
Maryland and these individuals really are going to have 
difficulty rebuilding, can you explain what specific 
qualifications were lacking in our request as compared to other 
States that were successful?
    Mr. Fugate. The number of destroyed uninsured losses was 
not very high. The number of affected would suggest that it was 
within the capabilities of the State of Maryland.
    The trouble with trying to do this is it never addresses 
the individual trauma of the destruction; it is always based 
upon the impacts to the State as a whole. And we look at the 
availability of other programs, such as Small Business 
Administration disaster loans, and, again, the State's ability 
to redirect community block development grant dollars to 
address some of these issues.
    So it is not based upon the trauma to the individual. You 
know, our hearts go out to them. It is based upon the impacts 
to the State as a whole. And we looked at that and made a 
determination and recommendation that the President concurred 
with that at this point the information does not support a 
major Presidential disaster declaration.
    And it is not uncommon that in a same storm system States 
side-by-side may find different outcomes for individual 
assistance, whether it is tornadoes, floods, or storms. But it 
is always based upon our best estimate of the information the 
State provides against the available programs that may be 
there.
    Yesterday I spoke to Gail McGovern, president of the 
American Red Cross. The American public has been very generous 
to the Red Cross. And that continued support allows them to 
support not only those that are in the areas that have been 
declared by the President but also in those areas that have not 
been declared. And I brought to her attention, again, the State 
of Maryland, that there are individuals there and communities 
that still need help. And even though it did not warrant a 
Presidential disaster declaration, it should never take away 
from the fact that people did have damages and losses due to 
the storm.
    Dr. Harris. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Nadler?
    Mr. Nadler. Thank you, Mr. Chairman.
    Major General Walsh, I want to follow up with you on the 
Sea Gate protection project in Coney Island, New York. As you 
know, the Sea Gate community has been vulnerable to storm 
damage for decades because of an error in the previous Army 
Corps project in Coney Island. The Sea Gate correction was 
finally slated to begin construction this fall. It has been 
fully funded by Congress, fully appropriated, and the local 
match secured. I know you are familiar with the project, as we 
discussed it in person earlier this year before the storm hit.
    Now that the area has been devastated by Sandy, it is more 
important than ever that the project be completed as originally 
intended and funded. I raised this with the Corps and with 
Secretary Napolitano during a tour of Sea Gate storm damage, 
and everyone said they would find a way to get it done.
    I assume the Corps will move forward quickly, but we 
haven't received confirmation of how the Corps intends to 
proceed. Can you confirm now that, in fact, the Corps will move 
forward quickly with the Sea Gate protection project as 
originally intended and funded by Congress?
    General Walsh. Sir, as you know, there is an authority 
problem with the funding. So we are going to move ahead with 
the project at a lesser funding requirement. So we will be 
looking at the----
    Mr. Nadler. So that is a ``no'' to the full funding that 
was appropriated by Congress.
    General Walsh. We will work with the authority that we 
have, and the project will move forward.
    Mr. Nadler. Well, of course our contention was that, 
considering the President's instructions to cut through redtape 
and find a way to say ``yes,'' and considering the more than 
considerable legal ambiguity, that I can't imagine anyone wants 
to tell the community they should remain vulnerable, given what 
just happened there, and that given that Congress has 
appropriated all the funds necessary to do the project. But I 
gather from your reply that we are going to have further rather 
difficult conversations.
    Mr. Fugate----
    Mr. Mica. Mr. Nadler, just a second.
    If you wanted to quickly--did you want to respond to his 
comment?
    What we had asked was that we try to get any questions for 
Mr. Fugate first.
    Mr. Nadler. That is why I am going to him now.
    Mr. Mica. OK. Well, that is the Major General. But if you 
go to him next. And other Members, please. Because I promised 
Mr. Fugate we would get him out as soon as possible.
    Mr. Nadler. I just said----
    Mr. Mica. Thank you.
    Mr. Nadler. Administrator Fugate, I recently wrote to you 
and to the EPA about environmental contamination from mold and 
other hazardous substances inside buildings following Sandy.
    Although FEMA will reimburse some homeowners for hiring an 
environmental contractor, in some places it is not that easy. 
In public buildings, such as public housing, it is more 
incumbent on public agencies to properly remediate. And in 
highrises, including private highrises, or densely populated 
buildings that you find in New York City, residents share 
walls, HVAC systems, and common areas, so that cleanup has to 
be done in a coordinated manner. If one resident cleans up his 
apartment but gets recontaminated through the HVAC system, it 
is not terribly helpful.
    Will FEMA support tasking EPA with overseeing comprehensive 
testing and cleanup of contaminated buildings and develop a 
plan that ensures that people's homes and workplaces are safe 
to inhabit?
    Mr. Fugate. We will take that message back to our partners 
at EPA.
    The other thing, Congressman, is those public buildings and 
public spaces that they need to do those inspections, that is 
eligible work for reimbursement of FEMA.
    But this is also something that Secretary Donovan is 
looking at. As you point out, in some of the privately owned 
apartment buildings, it is not clear what programs may be 
available. So we are looking at what additional programs and 
authorities may be needed outside of those that it is clear 
where FEMA can support activities, particularly in those that 
are privately owned buildings.
    Mr. Nadler. I appreciate that. So you--and I appreciate 
what you are saying, and I thank you for that.
    So I gather that you are saying there is a problem now, and 
especially in apartment buildings which are privately owned, 
where you can't simply isolate each apartment, you can't 
isolate each residence.
    Mr. Fugate. Obviously, there are going to be some 
challenges there. We are not sure exactly, particularly in 
those that are private, not public, how that would best go. A 
lot of this is going to come back to State and local health 
codes, those inspections, EPA providing technical guidance.
    But we will work with the State. We know this is an issue. 
It is something that we have dealt with before. But I think 
because of the number of buildings and densities and past 
history here, there is going to be required additional scrutiny 
as we look at what will be necessary to ensure air quality 
standards in these homes and businesses.
    Mr. Nadler. Thank you.
    I yield back.
    Mr. Mica. I thank the gentleman.
    Let me go now to Ms. Schmidt.
    Mrs. Schmidt. Thank you, Chairman Mica.
    I have a couple of questions for Mr. Fugate. Number one is 
I noticed in the testimony from Mr. Robert Latham that he 
talked about the duplicative environmental and historical 
preservation reviews, in that in each and every case, whenever 
you are dealing with an agency, each and every individual has 
to reinvent the wheel on those very time-consuming reports.
    And it seems to me that FEMA could have a box, that once 
somebody has done all of that assessment, that it can be passed 
down to everyone else in the chain that also has to go through 
FEMA or another governmental agency for money; that, in other 
words, just one process for those reviews that can be used for 
everybody, instead of everybody reinventing the wheel.
    And couldn't FEMA be the one to lead that charge?
    Mr. Fugate. Certainly something we have been working on. 
Part of it comes back to, though, is how our authorizers have 
given us authorities. Both the Corps, us, EPA, we all have 
responsibilities in doing these reviews. But since they all 
come from the same original Federal legislation, we are working 
on how we can reduce and share those findings.
    Mrs. Schmidt. Well, that doesn't make sense to me. If you 
are all trying to work together, why didn't you come up with a 
master plan? Or does it need legislation to say there is going 
to be one review when you all can look at it?
    Mr. Fugate. Where we can, we have. And we will take this 
back to work on.
    Mrs. Schmidt. Mr. Latham, you are the one that brought this 
up in your report. Do you want to respond to that?
    Mr. Latham. I think part of the problem has been when there 
are multiple funding sources and who the lead agency is for 
that particular project in the rebuilding process. And when 
there are multiple funding sources or multiple Federal agencies 
involved in that project, then we have to go through those 
multiple reviews. And I think what Craig is saying is that, you 
know, I think that there are some statutes, probably, that 
require the Federal agencies to do that.
    You know, I think what I am saying is, when we have those 
rebuilding projects that have multiple funding sources, Federal 
agencies oversight, there has to be a single historic 
preservation review process because multiple reviews extend the 
project tremendously.
    Mrs. Schmidt. Well, let me ask you, how do you think we can 
fix that? Should it be done by legislation, or should it be 
done by a mutual agreement?
    Mr. Latham. You know, I don't dare to understand all the 
Federal regulations, but, you know, from someone that has 
worked at the State and local level, you know, the fact that 
there is a declaration, number one, ought to trump just about 
everything. So when those funding sources contribute to the 
rebuilding of the project as a result of a disaster, then 
maybe--I am not sure; I certainly wouldn't dare speak for 
Craig--then maybe FEMA does take the lead.
    But, you know, I do agree that until we expedite those 
reviews and try to get them down to one review, that it is 
going to continue to drag out the rebuilding process.
    Mrs. Schmidt. Thank you.
    Mr. Fugate, the second question is, in my district, back in 
March we had a tornado that hit and devastated a very small 
community. And our Governor really didn't want to go to the 
Federal Government for help because he said that he felt if we 
looked at it from a State perspective we could get it done 
quicker and cheaper and that there was a time gap between 
presenting the bill to the Government and getting 
reimbursement.
    And I forget whose testimony I read today that talked about 
the time gap between getting reimbursed and how it really is 
costly to local communities. Is there any way to resolve that?
    Mr. Fugate. Well, I would think the first response would be 
to the Governor's request. It is not only just timely; it is 
also, was it within their capabilities? I would assume that if 
it had not been within the capabilities of the State or they 
exceeded their per capita threshold for public assistance, they 
would have asked.
    What they may have been referring to has been a previous 
issue with Small Business Administration where, if you are 
appealing individual assistance, Small Business Administration 
historically had not moved forward with their authorities to 
issue a declaration. They have changed that and will do that 
separately.
    But as far as the reimbursement process, both Louisiana and 
Mississippi saw what we tried to do in the storm earlier this 
year. One of the things that is most immediate for them is the 
cost of the debris removal and their protective measures. 
Historically, we had always waited for the final bills. This 
kind of comes back to the estimations. We have been working and 
using estimates to forward initial funds for both debris and 
protective measures, those first dollars that go out the door, 
oftentimes within the first 30 days or less of the disaster. We 
are using estimates; we are not waiting for final numbers. And 
we are working to get money back in that is expended on the 
front end before we get to the permanent work.
    We are doing that in Sandy, working particularly with New 
York and New Jersey, where a lot of their smaller communities 
have expended literally millions of dollars, and have started a 
process of getting those initial reimbursements done based upon 
estimates. We are not waiting for the final bill.
    So we have been pushing to get cash back into the 
communities faster based upon those that they have expended 
when a declaration does occur.
    Mrs. Schmidt. Thank you.
    Mr. Mica. Thank you.
    Additional questions for Mr. Fugate?
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. I have just one 
question for Mr. Fugate.
    I want to talk to you a little bit about the hazard 
mitigation piece of FEMA reimbursement. As I understand it, it 
is 15 percent of the first $2 billion of public assistance that 
goes to a State and then 10 percent of between $2 billion and 
$10 billion.
    So my question is, is that cap not too limiting?
    It seems to me that, given what we are going to be dealing 
with in New York, we have two problems. One, even though there 
is going to be a fair amount of public assistance money that 
will flow to the State, 15 percent of that, or 10 percent of 
that, will fall short of the kinds of preventive measures that 
we could take statewide. And then more specifically, it is 
going to set up a competition between, let us say, New York 
City, which has enormous needs, and counties such as the one I 
represent, Suffolk County, which has significant needs, nowhere 
near as significant as New York City, but we have our own needs 
with limited capacity to address them.
    So the question is, wouldn't we be wise to either adjust 
that cap upward or eliminate that cap so that we could be 
putting into place preventive measures that will save us money 
down the road and will also save our citizens a great deal of 
consternation and dislocation?
    Mr. Fugate. I will defer to Congress on raising the caps, 
sir. But I would also think we need to recognize that the FEMA 
mitigation programs are not well designed for some of the 
things that may be required.
    I will give the example of Louisiana, where a decision was 
made to build the protective levee structures. It was going to 
be primarily a Corps project. It was fully funded through the 
Corps. And it was a project that they expedited and got done 
rather quickly given the history of building that type of 
protection system.
    So I would not assume that merely increasing the FEMA 
dollars, which would go to the Governor and would then have to 
be determined by the State, the priorities--there may be other 
things to look at more holistically that would go beyond those 
FEMA mitigation dollars, particularly with some of the coastal 
communities----
    Mr. Bishop. Well, if I may, I am going to have the same 
question for General Walsh with respect to repairs that are 
pursuant to Public Law 84-99 with restoration to, in effect, 
pre-storm conditions as opposed to design standards. It is 
basically the same issue, which is, ought we be restoring in a 
way that would prevent future disasters or at least mitigate 
them, as opposed to just getting to pre-storm conditions or 
just spending up to a certain cap?
    Mr. Fugate. And, Congressman Bishop, you are going to have 
a lot of folks in your communities already wanting to elevate 
their structures because they saw where elevated homes went 
through the storm with very little damage and it was a very 
successful mitigation.
    Knowing that there is finite FEMA dollars, again, this is 
why we were looking at other Federal programs that have been 
used previously to support those activities, but also taking a 
look at some of the regional needs that are going to be 
critical infrastructure protections.
    And so whether or not Congress chooses that, I think the 
administration is actually looking bigger than what FEMA's 
mitigation programs do and looking at some of the challenges 
and what would be the best funding mechanism for some of the 
larger mitigation projects that may be required.
    Mr. Bishop. OK. Thank you very much.
    And I want to thank you again. Your people on the ground, 
at least in my county, have been phenomenal. Thank you very 
much.
    I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. LoBiondo wanted a 30-second personal privilege here.
    Mr. LoBiondo. Yes, thank you, Mr. Chairman.
    Major General, I just wanted to tell you what an 
extraordinary team you have in Philadelphia. Not just with this 
storm but over the years they have done just an exceptional 
job. Dedication above and beyond the call of duty. Finding ways 
to work with us, with all the coastal communities. And the 
outstanding work they have done has resulted in an enormous 
amount of money being saved from damage and I think from 
hurting people or loss of life.
    So I just wanted to make sure I publicly thanked you and 
congratulated and thanked them.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. LoBiondo.
    General Walsh. Thank you, sir. I will pass that information 
down.
    Mr. Mica. Thank you.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Fugate, what can I bring back to these people in the 
city of Hoboken that live in basements, that have lost 
everything, that this is their primary home where they have 
lost all their belongings? Is there any place that they can tap 
into where there is an assistance for these people?
    Mr. Fugate. Well, the most immediate assistance, if they 
are uninsured, is the FEMA individual assistance program, the 
1-800-621-FEMA, or they can register online at 
disasterassistance.gov.
    And we have set up and we have disaster recovery centers 
there. So if they have registered and they are still working 
through that, we are providing both short-term assistance as 
well as longer term housing.
    But I think you have to understand that, what are we going 
to do if we can't fix those basements? Where are they going to 
live? And I think that is why we are working very closely with 
HUD and why the President asked Secretary Donovan to take this 
lead. Because I think we can do some stuff in the short run, 
but if those basements--again, they are going to flood the next 
storm. Does it make sense always to go back where they were or 
to look at things differently?
    And I think this goes back with Congressman Bishop and 
others. There is a sense among the communities there that they 
don't just want to repair what was there. They want to really 
look at, how do we minimize people at risk next time? And 
because those basements oftentimes were affordable housing 
units, they are not as easy to replace because people didn't 
own them. It was a good place to rent. They were able to work 
and live in their communities. And that is gone. And it may not 
be repairable. And if it can be repaired, great. But how long 
is that going to take? But if we cannot repair all of that, 
where are people going to be able to live so they stay in their 
community, where their jobs are, where their schools are, where 
their kids go to school?
    And I think that is why the President recognized we are 
going to look far beyond Stafford Act programs. Because some of 
these issues will not be something that will get addressed 
immediately. We can deal with some of the immediate needs. But 
longer term, if we can't prepare all repair all those 
basements, or in the next storm, would it make sense to have 
people live somewhere else or have moreaffordable housing 
solutions so they weren't vulnerable next time it floods?
    Mr. Sires. Now, is that going to be a coordinated program 
with HUD?
    Mr. Fugate. Yes, sir. And that is again why the President 
has asked Secretary Donovan to take that lead, because, again, 
much of what is going to be needed longer term are not programs 
that FEMA has. They are really the programs that HUD and other 
Federal agencies have. And that is why we have looked at this 
from the standpoint of the recovery framework. Much of this is 
going to go far beyond what the Stafford Act programs were 
intended to do by Congress.
    Mr. Sires. And according to the mayor, she told me she has 
over a thousand families that were impacted by this.
    Mr. Fugate. Yep.
    Mr. Sires. The other question that I had is regarding fuel. 
And one of the problems that we had was getting the fuel to 
these places. And then once we got into these places, they 
couldn't hook up.
    Mr. Fugate. Yep.
    Mr. Sires. And, you know, like the Governor said, it was 
not an issue that we didn't have the fuel. It was an issue of--
how do you deal with that? How do you----
    Mr. Fugate. Here is a recommendation from States that have 
been through it, since this is something that State 
legislatures are much better at doing.
    Mr. Sires. I actually talked to them also.
    Mr. Fugate. Many of the States that have dealt with this 
have come back with requirements to look at pre-wiring, not 
necessarily putting a generator in, but pre-wiring gas 
stations. Part of the challenges with underground wiring, it is 
not easy to get a generator hooked up. And so, doing some 
things ahead of time, where it does involve the private sector. 
It is going to be their money, but it is also their customers. 
Looking at pre-wiring stations and identifying key stations and 
key areas that have capacity, that the State would want to make 
sure that if the power went out and we got a generator, there 
they could service that community.
    But these are really things that I think we will be working 
with our State partners, as much of this, I think, is going to 
be the State legislature looking at lessons from other 
Governors, how to best address those distribution issues.
    Mr. Sires. I also think you should look at food stores to 
do the same thing. Because the other issue was, you know, 
obviously, all the food that went bad, you know, in all that 
area.
    Mr. Fugate. If history tells me anything, there will be a 
lot of retailers, particularly the food service industry, 
pharmacies, gas stations, that will be looking at either pre-
wiring, transfer switch, or installing generators. We have seen 
this repeatedly after major hurricanes across the South, where 
it becomes a business decision that it is much better to have 
that generator versus deal with the losses and disruptions that 
occur when power goes out for not just days, in many cases, but 
weeks.
    Mr. Sires. And, again, thank you for the work that your 
people do.
    Mr. Mica. I thank you.
    And if we don't have any further questions for 
Administrator Fugate, we will excuse you at this time. Thank 
you for your participation.
    Mr. Fugate. Mr. Chairman, appreciate it. We expect that you 
will have further questions, and we will be responsive as the 
committee looks at additional information.
    Mr. Mica. And working with the other side of the aisle, we 
will leave the record open for a period of 2 weeks. And we may 
give all the witnesses additional questions, and appreciate 
their response.
    But we will excuse you now, and then we will go to 
questions for the other panelists.
    Mr. Fugate. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    First, we have pending a question from Mr. Bishop from New 
York.
    Mr. Bishop, you are recognized.
    Mr. Bishop. Thank you very much, Mr. Chairman. And I want 
to thank you for holding this hearing.
    I just have one question for General Walsh, and you know 
what I am heading toward. It is the same sort of issue as the 
hazard mitigation cap.
    My understanding of existing law, Public Law 84-99, it 
limits repairs to pre-storm conditions as opposed to design 
specification. And as our Governor has said, we seem to be 
having a 100-year storm every 2 years. And so, it begs the 
question, shouldn't we be repairing to design specification as 
opposed to pre-storm condition?
    And I will just give you a very specific example in my 
district that I do not expect you to be familiar with, but 
there is a section of our shoreline called Tiana Beach. Tiana 
Beach is enormously subject to a breach. It was very badly 
eroded during the most recent storm. There is an effort in 
place between the Corps and the State of New York to put some 
sand on the beach at Tiana. But to restore it to its pre-storm 
condition continues to leave it very vulnerable to a breach.
    And so it just seems logical that we should be making a 
greater effort there so as to hopefully create something that 
withstands storms, such as we did in West Hampton Dunes, which, 
as I said in my opening statement, held up remarkably well 
compared to, you know, beach on either side of West Hampton 
Dunes.
    So there is my question. How does the Corps feel about 
this? I know it is the prerogative of Congress, but what would 
be the Corps reaction to lifting that restriction and being 
able to repair it or restore it to design specification?
    General Walsh. Sir, the Public Law 84-99 is an emergency 
authority to bring systems back to pre-storm condition. It is 
not a construction authority----
    Mr. Bishop. Right.
    General Walsh [continuing]. Or funding. And that is where 
the difference is.
    And I believe the answer to your question is there are a 
lot of construction requirements that are here on the coasts 
and in other areas that would go through a prioritization 
process in regards to bringing things to full design. Again, 
the 84-99 is an emergency authority.
    Mr. Bishop. If I may, though, but aren't we then, in 
effect, throwing good money after bad? I mean, it seems to me 
that, again, this is an issue we are going to have to confront 
given the frequency of such devastating storms. So I understand 
the distinction between emergency repair and construction, but 
I, at least, am going to push for a lifting of that restriction 
and push for design specification as opposed to pre-storm 
condition.
    General Walsh. Yes, sir. And I would agree that those 
communities that live behind an engineered beach probably fared 
better than those that did not.
    Mr. Bishop. OK. Thank you, General. Appreciate it.
    Mr. Mica. Other Members with questions?
    Mr. Sires?
    Mr. Sires. Yes, I have two questions.
    One, General, every spring I seem to get an awful lot of 
calls from people for debris on the river. Obviously, after the 
storm there is a going to be a lot of debris in the Hudson 
River. Are you making plans to pick up some of that debris, 
some of the piers that were destroyed and are floating around?
    And I know you have done a great job picking up debris up 
till now, but this is a constant problem on the Hudson River, 
as you know. So I was just wondering, you know, are you gearing 
up for this?
    General Walsh. Yes, sir. We have three debris vessels that 
are working on the Hudson and in the port.
    Mr. Sires. Great.
    And, Mr. Popoff, you mentioned that you had a plan for fuel 
delivery that you came up with since you get so many 
hurricanes. Is that what I heard?
    Mr. Popoff. Yes, sir. It was actually the State of Texas 
which came up with the plan.
    Mr. Sires. And what does it consist of?
    Mr. Popoff. It was developed by creating a partnership of 
the fuel vendors, the fuel distributors, and then taking the 
critical fuel locations--the locations along the evacuation 
routes, the interstate highways--the gas stations, making sure 
that they are full of fuel. And through their local emergency 
management partners, making sure that those facilities had 
emergency generation power for both evacuating and then 
reentry, including emergency responders.
    Mr. Sires. So they do have generators. You require them to 
have the generator?
    Mr. Popoff. No, sir. There is no State law or legislation 
that requires a private business to have a generator. But most 
of the retailers, as Director Fugate said, most of the 
retailers have realized it is just good business practice to 
install emergency generators.
    In my county, I actually have a service station on an 
evacuation route that has two emergency generators, and they 
did that as an initiative on their own. They weren't compelled 
to do it. They just realized it was good business practice.
    Mr. Sires. Do you know if food stores have the same 
approach? Are you aware of any?
    Mr. Popoff. Well, I am not too sure on food, sir. I can 
tell you the one instance in Galveston County, that particular 
store is a food store, but they have a large distribution of 
gasoline that they do there.
    Mr. Sires. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Ms. Norton, additional questions?
    Ms. Norton. Thank you very much, Mr. Chairman. I do.
    We have seen a shoreline devastated that I cannot believe--
and I suppose this is for Mr. Walsh--but I cannot believe that, 
even in the 100-year exercise that we have just gone through, 
that kind of devastating loss along the northeast shoreline was 
anticipated.
    Now, we have had a lot of talk about what happened and 
rebuilding, but rebuilding here is going to be very different 
from rebuilding in the Katrina-affected areas. To be sure, 
there were--for example, in Mississippi there were some 
business interests. Gambling along the shore, that was wiped 
out. I think they even went back and built. But it is hard to 
imagine talking about the shoreline of New Jersey, for example, 
and New York, that we aren't talking about millions of people 
who lived on or close to the shoreline or had second homes 
there. And I am not sure that any of our thinking about natural 
disasters has been left intact.
    Let me just read a section of what the National Weather 
Service provided to me, speaking about this area, where the 
Nation's Capital and many of its resources are located. ``It is 
not out of the question''--and here I am quoting--``under the 
right set of circumstances''--that is what you had in Sandy--
``a strong hurricane, Category 3 or higher, making landfall 
south of Washington and tracking to the northwest, a stronger 
storm could collide with a southern mid-Atlantic and generate a 
higher storm surge than Isabel for a Sandy-like storm displaced 
to the south. The reality of such a possibility, along with the 
slowly creeping sea-level rise from climate warming, should 
serve as a compelling call to action for local infrastructure 
planners.''
    Well, General Walsh, you are going to be in the midst of 
that, and so will you, Mr. Tombar.
    As the Corps helps to clear the debris and will almost 
surely be called upon to help build at least some of the public 
resources, what is the best way to protect the shoreline of New 
York and New Jersey, for example, so that we are not faced with 
such a disaster in the future?
    General Walsh. Thank you for that question, Congresswoman.
    The best approach that we have seen in a number of 
different areas is to look at things from a systems 
perspective. Trying to put a structural fix on one side of a 
city or a State and not on the other could have competing 
impacts. So what we advocate is looking at things from a 
systems approach.
    The other thing that we look at----
    Ms. Norton. I don't understand what that means. Here we 
have the shoreline busted. We had apartment buildings, we had 
single-family homes, we had multifamily homes along there. I 
don't know what a systems approach means.
    So please give me the common language in describing, if you 
are the Corps of Engineers, the Governor of New Jersey, the 
Governor of New York, are you going to rebuild there? What are 
you going to do to protect in the places that were devastated? 
What would the Corps recommend, what would HUD recommend to 
respect the shorelines of this part of our country?
    General Walsh. Yes. There are a number of projects along 
the coast. Many of them have their own authorities, and some of 
them have their own construction funding. What we try to do is 
we work through those designs to make sure that when we put a 
structure, a sea wall, or we put a beach renourishment project 
in one area, that it doesn't have negative impacts on another 
area.
    So we are looking at it from a systems approach to make 
sure that when we do a beach renourishment project that it is 
wide enough and long enough that it is not having negative 
impacts in another area.
    Ms. Norton. Are there island barriers of the kind that were 
in Louisiana that didn't prove as useful because we hadn't kept 
them--we hadn't grown them? Are there barriers, natural 
barriers, that could be useful or could be planted in the 
Atlantic close to these two States?
    General Walsh. Yes, there are barrier islands across from 
each of the two States. And we need to be looking at them from 
both a structural and nonstructural solutions to solving the 
storm surge.
    Ms. Norton. ``Structural and nonstructural'' meaning what?
    General Walsh. Structural means a beach renourishment 
project. A nonstructural is that people perhaps would move away 
from the risky areas.
    Ms. Norton. Are we sure that there will be no rebuilding, 
Mr. Tombar, in the affected areas until some barriers are 
constructed that would go far toward making a similar disaster 
not impossible?
    Mr. Tombar. Unfortunately, ma'am, no. What typically 
happens is that you have individual homeowners or building 
property owners who will move quickly to try to restore that 
which was damaged. And it will often outpace decisions that--
some of these tough decisions that local political leaders and 
State political leaders have to make about mitigation. And so--
--
    Ms. Norton. Isn't there something we can do about that? I 
mean, I can understand that people who have lived in an area 
all their lives, they can't possibly imagine not living there. 
But the Government is having to reimburse them, at least in 
part, for the damage they have accrued.
    Isn't there something that the Government can do to make 
sure that they don't get ahead of the Government and thereby 
perhaps incur additional costs to the Government at a later 
date?
    Mr. Tombar. Yes, certainly. We have, as Administrator 
Fugate mentioned, been working with the State-led housing task 
forces in all the affected States to begin to identify some of 
the tough decisions that need to be made and suggest to the 
local leaders, as well as the State leaders, some of the things 
that have been done in the past that we have seen that have 
proven effective in mitigating against subsequent disasters.
    For example, a recent storm, Hurricane Isaac, impacted 
areas that were impacted by Hurricanes Katrina and Ike and 
Gustav prior to that, but because of the mitigation measures 
taken by individual homeowners at the direction of the State 
and local leaders, many of those homes that did, in fact, 
mitigate against future disaster by elevating were left, as we 
say, high and dry, without any impacts from Hurricane Isaac.
    Ms. Norton. Yeah, and that was not the case here because we 
had never experienced that kind of storm here. So what I am 
really asking is, could the Governors of New Jersey and New 
York use their governmental authority, their--yes, their 
authority to forbid rebuilding until an assessment was made as 
to the safety? Or is there nothing in place to keep people from 
going ahead and saying, To hell with it, I am putting up my 
house since there is nothing here to keep me from doing it?
    Would you recommend to the Governors of the affected States 
that they take some kind of action to at least delay the 
immediate rebuilding of homes in the devastated area?
    Mr. Tombar. Yes, ma'am. I am not quite certain what the 
authorities are for the individual Governors, but I can tell 
you that we have already been in discussions with them and 
their staffs about the fact that some of these hard decisions 
that are important for the long-term viability of these areas 
and to guard against repetitive loss in future storms like this 
need to be made as expeditiously as possible. But we have----
    Ms. Norton. I wish you would, within 30 days, get 
information to the chairman about what action HUD and FEMA have 
together taken, perhaps, to ask the authorities in these two 
States in particular whether something can be done to keep the 
rush to rebuild from occurring.
    Mr. Tombar. Certainly.
    I will say that what we are talking about here, 
essentially, are decisions around building codes. And those are 
things are not even controlled by a Governor's office. 
Typically, they are very locally driven decisions that rest 
with a mayor or county executive. And so, trying to drive some 
consistency and consensus around those decisions is that much 
more difficult because of the several layers of Government and 
authority that need to be acknowledged in this process.
    Ms. Norton. To be sure. I am still not convinced that 
Governors don't have authority, perhaps with their legislators, 
to keep from smacking us in the face with more liability 
because nobody could figure out who to turn to.
    Could I ask about Mississippi? Excuse me, one of our 
witnesses, or maybe it was the Corps, can tell me about the 
decision of the gambling interests to rebuild. Did they not 
rebuild precisely where they were before?
    Mr. Latham. Ms. Norton, I would like to answer that for 
Mississippi because, prior to Katrina, the gambling industry 
and the permitting for that required them to build on the 
water, to limit expansion. The legislature and the Governor 
moved quickly after Katrina to allow them to move inland.
    So the casinos have rebuilt, yes, but to a different 
standard that would minimize future impacts of storms. So I 
think that that part of our economic development side is much 
more resilient now than it was pre-Katrina.
    Ms. Norton. So they are not on the water but they are on 
land close to the water, and you think they are essentially 
protected.
    Mr. Latham. Yes. And most of them have moved all of the 
critical components of the casino. They all require hotels, but 
they are pretty much elevated so that the ground floors are 
built to blow out or are maybe parking areas so that the cost 
of recovery and rebuilding and the time required to get back up 
and going is minimized.
    Ms. Norton. One more question. It is really for Mr. Walsh.
    We have just gone through this 100-year exercise. And 
anyone who went through it, great hardship, because people 
didn't want to buy flood insurance. And it is the outcome, 
really, of Katrina that made FEMA, in fact, take us all through 
another 100-year exercise. And that really meant, you know, 
every 100 years, I mean, roughly speaking, you could get a 
Katrina-like, or here it would be a Sandy-like event, except 
that I don't think anybody contemplated even in 100 years a 
Sandy-like event.
    Is the 100-year storm notion, has it been made obsolete by 
recent storms in the last, let us say, 3 or 4 years?
    General Walsh. Congresswoman, the word ``100-year'' storm 
is actually a misnomer. It is a 1-percent chance of that event 
happening, and so it is 1 percent every year. And some people 
have used that 1 percent a year to say the event wouldn't 
happen in 100 years. But that is a misnomer. You have a 1-
percent chance of----
    Ms. Norton. That is a good point. So is the 1-percent 
notion obsolete, or do we need to be rethinking even that? Does 
this fit? Did what happened to New York and New Jersey fit the 
1-percent notion?
    General Walsh. I believe it is a 1-percent storm, but I 
would have to go back and look at the storm surge.
    Ms. Norton. I wish you would get that information to the 
chairman, too, because maybe that is what 1 percent means. 
Makes a lot of sense to me.
    Final question for Mr. Tombar, and that is about exactly 
what resources that FEMA could not use, as I understand HUD to 
have a much broader array of resources and greater flexibility. 
And what is the value added of HUD being the coordinator, 
bringing to the table flexibility and resources that would not 
otherwise easily be available to FEMA? We discussed one of them 
with, of course, Mr. Fugate, but go right ahead.
    Mr. Tombar. Certainly. There are a few things I would say 
in that regard.
    One is, personally for Secretary Donovan, he is a native of 
the affected area, and his previous role was actually as 
housing commissioner for the city of New York. And so he has 
relationships because he worked directly with Mayor Bloomberg 
and----
    Ms. Norton. Is that the chief reason that HUD was made the 
lead coordinator?
    Mr. Tombar. It certainly has had some bearing on that 
decision. He worked for Governor Cuomo, as well, in the 
previous administration and led one of the large financial 
institutions that was based in New Jersey. So he has deep 
connections to the area and has been using those to great 
effect already to lead to some coordination around the Federal 
role in working with the State and local governments.
    Beyond that, there is, as pointed out by Administrator 
Fugate, in HUD's programs great flexibility. In particular, I 
will call out the Community Development Block Grant program 
that has in this disaster already been used in places like 
Maryland, where an individual assistance designation has not 
been given, been used to actually house on a temporary basis 
some of the families that have been impacted.
    Ms. Norton. You mean right now.
    Mr. Tombar. Right now, yes, ma'am.
    Beyond that, there are plans underway, in talking to the 
State and local governments, that are CDBG entitlement 
communities--meaning that they receive annually CDBG grants 
from us--what waivers would be available to help them to do 
something that I think has been alluded to a number of times in 
this hearing, and that is to build back in a way that is 
smarter and safer than what has been done before.
    I am sure any of the witnesses to my left can tell you, 
because each of their States benefited from allocations of 
Community Development Block Grant in their recovery processes 
in the past. And that money was used where, at the edge, you 
have FEMA only allowing rebuilding up to a standard that 
existed prior to the disaster impacts. That HUD money 
essentially can make things better.
    And we have made a priority of that during this 
administration to, quite frankly, to focus on mitigation, to 
make sure that that which is done benefits the taxpayers in the 
long run. In fact, there is a study that HUD often cites and 
the Secretary often cites that says that for every dollar used 
in mitigation, there is a four-to-one return on investment in a 
subsequent disaster.
    It is why we have worked with places like Cedar Rapids, 
Iowa, to actually buy out homeowners in a neighborhood that 
flooded in 2008 and move them to higher ground.
    Ms. Norton. Using CDBG funds?
    Mr. Tombar. Yes, ma'am, using CDBG funds.
    Similarly, in the States of Louisiana and Texas, buyout 
programs have been underway to move families out of homes away 
to places that are less vulnerable to subsequent storms.
    It is something that we have already begun to discuss with 
State and local leaders and are working with them to find ways 
to implement that using existing resources and any additional 
resources that Congress may provide for that benefit.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Following that line of questioning by the ranking member, 
Mr. Tombar, this is the National Disaster Recovery Framework 
that was published in September 2011 by FEMA. Now, we looked 
through this and we did not see any mention of HUD or some of 
the activities you described. Have you read this?
    Mr. Tombar. Not only read it, sir, but I had a hand in its 
production.
    Mr. Mica. OK. But maybe it would--and I have no objection 
to HUD's participation, but maybe it would be good to--and you 
said you have also used CDBG grants before. Maybe it would be 
good to have that as part of this plan, your participation. And 
Ms. Norton asked within 30 days. If you could supply an outline 
of what you plan to do.
    Again, we are crafting legislation to try to expedite this 
whole process. And I have no problem even moving some of FEMA's 
current responsibilities over to HUD if CDBG grants get things 
out faster, get it done more efficiently with less redtape.
    Did you see Mr. Riley's description here of--we got it over 
there--of how long some of these projects get to be resolved? 
So we would call on you to--have you read our bill, 2903?
    Mr. Tombar. No, sir, I have not.
    Mr. Mica. OK. Well, maybe you could review that, too. We 
welcome your suggestions. I know sometimes the agencies have 
constraints, going through OMB and all of the bureaucracy you 
face. But we are really trying to craft--finalize legislation--
we have crafted legislation--but finalize it with the best 
provisions possible so that people who have been through 
Katrina, Irene, tornadoes and floods and everything else don't 
have to go through the same long, drawn-out, redtape process. 
And if there is an easier way to do it, we welcome it. So we 
would like to hear from you, if we may.
    Mr. Tombar. If I might, Mr. Chairman, you will find that in 
my testimony I said that Secretary Napolitano and Secretary 
Donovan actually worked together under an effort started in 
2009 by the President called the Long-Term Disaster Recovery 
Working Group. That NDRF that you held up is an outgrowth of 
that process.
    You will find in it that there are six recovery support 
functions. The housing recovery support function is one led by 
HUD. And it is the very one that we are using right now to 
begin those communications and those conversations with State 
and local leaders that I raised in answering Ms. Norton's 
question. And so what we have found is that this framework is a 
useful way for us to do some of that work.
    Mr. Mica. Well, two things then. Secretary Donovan and you 
all, if you revise this, maybe you should include yourself. And 
also, if you can provide the committee with what you are doing 
and then any of your recommendations. If we do need legislative 
authority to revise FEMA's role and your role, we would be glad 
to look at that, those suggestions.
    Mr. Popoff, I was trying to get the Administrator--he is 
gone now--but to look at maybe not trying to replace what the 
private sector is doing, but to help facilitate, help initiate 
some assistance or coordination of efforts from the private 
sector to deal with the fuel situation. We have seen it 
repeated time after time. Fuel and some sources of energy, 
maybe--again, we are not trying to supplant what the private 
sector is doing or public utilities are doing.
    And I think you described, again, a cooperative plan. And 
we are going to submit a question to you and also to the 
Administrator to see if he can't initiate on a larger scale 
what you have done and you described before the committee 
today. Because every disaster, it appears, we have this issue 
with getting fuel and power generation to specific activities 
or to individuals who could make things be restored again.
    So thank you for your recommendation. You think it would 
work on a larger scale?
    Mr. Popoff. Yes, sir, absolutely. You know, I believe that 
we truly--we only respond to seven different types of 
disasters. And with those seven, and understanding the 
mechanics of it, it is how we manage the organization is how we 
respond to these folks and how we provide the necessary 
assistance. And the fuel plan that was produced by the State is 
a great example of how government can work with the private 
sector and put a significant plan together.
    Mr. Mica. Good. Well, again, your testimony was most 
helpful. And we are trying to address where we have gaps, 
again, and repeated experiences with these disasters.
    Mr. Riley, I don't think we have ever had anybody so 
graphically describe Government redtape and bureaucracy, at 
least dealing with disasters. We have some charts on health 
care and other Government proposals, but that is pretty 
amazing.
    Now, Administrator Fugate did point out, however, and I 
mentioned that after we came down there, we came back and did 
this arbitration mediation. Why didn't you turn to that as a 
solution?
    Mr. Riley. It is a very complicated process. And if you 
follow the timeline, there was ongoing discussion during the 
whole thing. So, you know, it was just a matter of we never got 
a ``no'' completely, so we never went to arbitration.
    The frustrating thing about this is that if you look at the 
timeline, early on in the timeline, there was the cost estimate 
and recommendation of professional architects and engineers 
concerning the status of the building. FEMA's process didn't 
allow them to accept that, and they went through their own 
process, and we ended up in the same place.
    Mr. Fugate indicated that currently they are in a position 
to allow their staff to accept the applicants' architects and 
engineers reports and use that as the basis for funding. We 
certainly support that. We don't always see that. And maybe 
they just haven't gotten the email in Louisiana, as he said.
    But, you know, that is certainly a way that this particular 
process--and like I said, this is not an anomaly. There are 
thousands like this, in Katrina, in Gustav, in Ike, even in 
recent storms. And so a process that would, you know, get to 
the result a lot quicker--arbitration is a good tool, and we 
have used it, and we have used it successfully.
    We would recommend that the tool be continued, that the cap 
be lowered so that the smaller communities that have smaller 
projects have access to that independent, you know, third-party 
review of the FEMA process. And we do feel, from the large 
projects, we have seen these large projects be sped up simply 
by the threat of arbitration.
    Mr. Mica. Well, we would like to have as many tools at the 
disposal of FEMA to get these issues resolved and get the 
claims settled. We welcome your recommendations, too.
    We are trying to get the Senate to conclude their 
consideration of the legislation. I think that that measure can 
do more than all the money we throw at the problems, or try to 
throw at the problems. Sometimes, as you heard the 
Administrator, they are still dealing with so many settlements 
from so many disasters because of the way their hands are tied 
and our inability to be a little bit more flexible or have, 
again, some options that don't currently exist.
    So any other recommendations you can provide us. We are 
going to leave the record open for the next 14 days, by 
unanimous consent.
    Without objection, so ordered.
    And I want to thank each of you for being with us today. We 
will have additional questions we will submit to you.
    The hearing has gone on for 2 hours. You have been most 
patient and also, I think, most productive in your 
recommendations and observations to the committee. So we thank 
you so much.
    And there being no further business before the committee, 
this hearing of the Transportation and Infrastructure Committee 
of the House of Representatives is adjourned. Thank you.

    [Whereupon, at 1:02 p.m., the committee was adjourned.]
</pre></body></html>
